<html>
<title> - CHATTING ON-LINE: A DANGEROUS PROPOSITION FOR CHILDREN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



         CHATTING ON-LINE: A DANGEROUS PROPOSITION FOR CHILDREN

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2002

                               __________

                           Serial No. 107-102

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

80-669              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    BART GORDON, Tennessee
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      ANNA G. ESHOO, California
PAUL E. GILLMOR, Ohio                ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          GENE GREEN, Texas
NATHAN DEAL, Georgia                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           DIANA DeGETTE, Colorado
CHARLES ``CHIP'' PICKERING,          JANE HARMAN, California
Mississippi                          RICK BOUCHER, Virginia
VITO FOSSELLA, New York              SHERROD BROWN, Ohio
ROY BLUNT, Missouri                  TOM SAWYER, Ohio
TOM DAVIS, Virginia                  JOHN D. DINGELL, Michigan,
ROBERT L. EHRLICH, Jr., Maryland       (Ex Officio)
CHARLES F. BASS, New Hampshire
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Curtin, Caroline, Director, Integrity Assurance, AOL, Inc....    26
    Gregart, James J., Kalamazoo County Prosecuting Attorney.....    14
    Karraker, John, Kalamazoo, Michigan..........................    12
    Rodriguez, Ruben D., Director, Exploited Children Unit, 
      National Center for Missing and Exploited Children.........    19
    Tarbox, Katherine, New Canaan, Connecticut...................     4
    Tucker, Kathleen, Director, I-Safe America, Inc..............    33

                                 (iii)

  

 
         CHATTING ON-LINE: A DANGEROUS PROPOSITION FOR CHILDREN

                              ----------                              


                          MONDAY, MAY 13, 2002

                  House of Representatives,
                  Committee on Energy and Commerce,
       Subcommittee on Telecommunications and the Internet,
                                                       Oshtemo, MI.
    The subcommittee met, pursuant to notice, at 1 p.m., in the 
Kalamazoo Valley Community College M-Tec Facility in Oshtemo, 
Michigan, Hon. Fred Upton (chairman) presiding.
    Members present: Representatives Upton and Bass.
    Staff present: Kelly Zerzan, majority counsel; Will 
Nordwind, policy coordinator/counsel; Hollyn Kidd, legislative 
clerk; and Brendan Kelsay, minority professional staff.
    Mr. Upton. Good afternoon everyone. I want to welcome 
everyone to KVCC's wonderful M-Tec facility for this field 
hearing of the Telecommunications and Internet Subcommittee 
entitled Chatting On-Line: A Dangerous Proposition for 
Children.
    I want to pay particular thanks to Dr. Marilyn Schlack and 
Bruce Koper for making sure that everything worked out terrific 
in having us here today.
    As the subcommittee chairman and parent of two young 
children who use the Internet at home for both school, work and 
fun, there are few issues that are more important than making 
sure that our kids are protected on-line. I felt it was vitally 
important to hold this hearing not in Washington DC, but in 
Kalamazoo to help spread the word to the families of Southwest 
Michigan that sadly we are not immune from the ugly underside 
of chat rooms and that we can and must fight back against those 
on-line sexual predators who seek to sneak into our homes via 
the home computer and do harm to our kids.
    When a person comes to your door and knocks on it, you can 
teach your kids to look out the window or through the peephole 
and see who it is before they decide whether or not to unlock 
the door and let that individual in. You teach them never to 
open the door to a stranger.
    Also you can always teach your kids not to talk to 
strangers outside in the street. But in this age of home 
computers and the Internet, parents do not necessarily have 
that luxury or security anymore. Pedophiles and sexual 
predators have figured that out and they have made chat rooms 
their latest stalking ground.
    Alarmingly, national surveys suggest that 1 in 5, 20 
percent, of young Internet users have received an unwanted 
sexual solicitation via on-line chat rooms. In the Southwest 
Michigan area alone, we have had a number of tragic examples.
    A 21 year old college student has been accused of having 
sex with three Richmond girls, a 14 year old and two 13 year 
olds, whom he met on-line.
    A 23 year old Oregon man pled guilty to crossing State 
lines to have sex with a 13 year old girl from Kalamazoo; they 
met in a chat room.
    A 34 year old Brooklyn man, who claimed to be a 17 year old 
boy, was sentenced last August for having sex with a 14 year 
old girl from Michiwauke. They met on-line, traded photos of 
each other, and had conversations about sex.
    These are but a few examples of how evil sexual predators 
are preying on our communities and we know there are many more.
    Today we will hear from a number of witnesses including 
Katie Tarbox, a young woman who has the courage to step forward 
to tell her terrifying story of how, when she was in her early 
teens, she was preyed upon by an adult who used a chat room to 
take advantage of her. She is telling her story so that parents 
and children in Southwest Michigan can learn lessons from her 
experiences and hopefully avoid such dangers on-line.
    She is to be commended for her courage and I know that this 
is not easy for her.
    We will also hear from John Karraker, father of a Kalamazoo 
teenager, who was also preyed upon by an adult on-line. John is 
stepping forward today to provide his perspective in hopes of 
helping other fathers and mothers protect their kids.
    He is not only a father, but also a Public Safety Officer 
here in Kalamazoo. He knows that if it can happen in the house 
of a Public Safety Officer, it can happen in any house.
    He is testifying today solely in his capacity as a dad. 
Given that he courageously puts his life on the line in the 
service of our community every single day, it should come as no 
surprise that he is using his off-duty time to be with us today 
to help our community protect kids on-line.
    Other witnesses include Mr. Jim Gregart, Kalamazoo County's 
outstanding prosecuting attorney; Ruben Rodriguez of the 
National Center for Missing and Exploited Children; Caroline 
Curtin of America Online, which offers a number of parental 
controls like kids-only chat rooms; and Kathleen Tucker of I-
SAFE, a non-profit organization dedicated to educating kids 
about on-line safety.
    I really want to thank all of our out-of-town witnesses for 
traveling great distances to be with us today.
    I have voted for and Congress has passed several laws in an 
attempt to protect kids from some dangers on-line. 
Unfortunately, the Supreme Court recently struck down one of 
those laws which banned virtual child pornography. Virtual 
child pornography looks just like the real stuff, but it is 
generated by a computer.
    However, I am an original co-sponsor of a measure that 
rewrites the law to pass constitutional muster in light of the 
Court's ruling. I understand that the House will have this 
legislation up on the House floor next week.
    The Court's decision follows on the heels of the Court's 
1997 decision to strike down those portions of the 
Communications Decency Act which had made it illegal to send 
pornography to children via the Internet. Still pending in the 
courts is the Children's Internet Protection Act, which 
requires schools and libraries that receive Federal funding to 
employ Internet filtering software and have written Internet 
safety policies to protect children from indecent material.
    Let us hope for a comeback in the Courts.
    But even those laws did not address the problem of 
protecting kids from the dangers of chatting on-line. Getting 
into one of those chat rooms is easier than getting on a bike, 
but I would argue that it is much more dangerous.
    I introduced a bill, which was recently approved by our 
subcommittee, which would set up a child/family space on the 
Internet known as dot-kids. Just like we have dot-com and dot-
org, we will have dot-kids. It will be in essence like a 
children's section of the library, where parents could send 
their kids to be safe on-line.
    Chat rooms would be banned in the dot-kids space unless 
they were specifically designed and operated to protect 
children from harm, and the content in the chat room is both 
suitable for children under 13 and not harmful to them.
    I expect this Bill to be on the House floor for vote next 
week as well.
    However, even with all of these measures, the bottom line 
is that there is no better protection from on-line dangers than 
proper parental supervision. This means that we, as parents, 
need to become better aware of the dangers and how to avoid 
them. Then we must also teach our kids.
    So today's hearing is designed to help us accomplish this 
mission around the country, particularly here in Southwest 
Michigan.
    I also want to welcome a friend and dad, Congressman 
Charlie Bass, to Kalamazoo. He is a member of this subcommittee 
from New Hampshire. He has traveled a great distance to be with 
us. He cares deeply about the issue.
    With that, I recognize my friend and colleague, Mr. Bass.
    Mr. Bass. I thank you, Mr. Chairman, and I would like to 
associate myself with your remarks which were right on mark.
    This hearing is taking place here in Michigan, but it could 
easily take place in any community anywhere in the country, 
including anywhere in my district, anywhere where children can 
have access to the Internet and communicate.
    Like all communication issues, I have discovered that they 
are so complex that there are never any clearly definable 
issues or solutions. One has to examine First Amendment rights 
and the ability to communicate. One has to look at the issues 
of the fact that the Internet is really one of the greatest 
technological inventions of the late 20th, early 21st century 
which will probably keep America ahead for many, many decades 
to come.
    However, as my friend from Michigan here mentioned, there 
are some very dark and unpleasant sides to this new technology, 
most notably the issue that we are discussing here today.
    It is my hope that we can discuss issues, such as whether 
or not the criminal justice system is adequately prepared to be 
responsive and to deal with what will undoubtedly be a growing 
problem in society; what efforts are underway to teach and 
prepare children to deal with chat rooms, especially children 
that may not understand the implications of the types of 
discussions and the motives of sexual predators when they get 
in a chat room environment; and most importantly, the issue of 
how communities and parents deal with children that are exposed 
to this kind of environment.
    I had the pleasure of having lunch with Katie before we 
appeared here today, and she was kind enough to give me a copy 
of her book to read, which I will. I believe in this book one 
of the issues that is discussed is how she was ostracized by 
her own community and her own friends and other parents after 
this event occurred.
    I know that is not strictly within the jurisdiction of this 
subcommittee, but I think that it is something that all of us 
need to think about carefully because we are not going to move 
forward and deal with this issue until we, as society, are 
willing to accept the fact that it can happen to anybody, in 
Michigan or New Hampshire or anywhere else in the country.
    And there may be policy solutions, but as Congressman Upton 
said, it is parents, families, and communities that bear the 
ultimate responsibility for solving and dealing with these 
problems.
    With that, I yield back, Mr. Chairman.
    Mr. Upton. Thank you very much.
    Our first witness is Ms. Katie Tarbox.
    Katie, the time is yours.

   STATEMENTS OF KATHERINE TARBOX, NEW CANAAN, CONNECTICUT; 
  ACCOMPANIED BY JOHN KARRAKER, KALAMAZOO, MICHIGAN; JAMES J. 
   GREGART, KALAMAZOO COUNTY PROSECUTING ATTORNEY; RUBEN D. 
 RODRIGUEZ, DIRECTOR, EXPLOITED CHILDREN UNIT, NATIONAL CENTER 
FOR MISSING AND EXPLOITED CHILDREN; CAROLINE CURTIN, DIRECTOR, 
INTEGRITY ASSURANCE, AOL, INC.; AND KATHLEEN TUCKER, DIRECTOR, 
                      I-SAFE AMERICA, INC.

    Ms. Tarbox. Thank you, Chairman Upton, for inviting me here 
before the House Subcommittee on Telecommunications and the 
Internet, and thank you, Congressman Bass.
    I am very pleased to be here today. I am only 20 years old 
and I have to say that when I first began this fight, as I will 
call it, in trying to help the education regarding Internet 
dangers, this has always been one of my goals. I am happy to be 
here encouraging legislation and whatnot. I believe it is the 
right step and going in the right direction.
    I have probably told my story now over 200 times. I go 
around the country speaking and I have sometimes written it 
out, but I always feel that the best way to tell my story is 
just by telling it raw. People can read my written testimony, 
but even though this happened 7 years ago, I want people to see 
that there are raw emotions and that this did deeply affect me 
and my family and my community.
    I was thirteen years old when I first started using the 
Internet. My family received the free CD-ROM of hours from 
America Online, and back in 1995, there was not much press or 
news regarding the Internet.
    We knew that we were one of the first families in the 
country to sign up for the Internet. I had some idea about what 
a modem was, but I did not really understand what it was. I 
just knew that it made some funny noises and that it could 
connect me to millions of other people in the country.
    My family thought that we were signing up for the Internet 
to buy airplane tickets, and my sister was going to do a 
college search. Perhaps we could shop, and, you know, we could 
go into chat rooms.
    I had learned about the Internet at school. We were doing 
an Everglades project connected with CNN and we were connected 
with other classrooms. The way that we had used the Internet 
was that we would go into chat rooms to talk to other kids 
about what they were doing.
    So my introduction to the Internet was that this was a 
place where you go on the computer, and you would meet people 
and you would go into chat rooms. Quite honestly, I thought 
that was all that America Online had to offer me because it was 
the thing that was most boldly advertised when you would sign 
on.
    I started going into teen chat rooms. I did not use them 
that much, maybe about an hour a day. I was a very active kid. 
I was a high honors student. I was a national swimmer. I played 
piano. I was in my select chorus at school, and one of the 
things that the Internet offered me was that, while I was 
pretty busy, if I could not call my friends at 11 o'clock at 
night, I could go on the Internet and my parents thought that 
it was a great thing. You know, I could go and talk to other 
kids, maybe from Florida about swimming, or I could talk to 
them about music.
    At times I found it discouraging. There was a lot of heavy 
sexual remarks, but I kept on signing on hoping, you know, 
maybe there would be someone out there that I could talk to.
    It was a September Sunday morning that I signed on and I 
asked if anyone wanted to talk to a 13 year old female. I 
immediately got a response from 23 year old Mark. And I sat at 
my computer and I thought, ``Oh, no, I cannot talk to somebody 
this old.''
    I was hesitant to reply, but sitting there I thought, 
``Well, this is never going to leave the Internet. It is never 
going to go beyond this.''
    And so I replied back. He started to ask me a few questions 
about where I liked to shop and what bands I liked. And I 
really liked Dave Matthews Band at the time and he had gone to 
concerts. He could tell me about the lead guitarist; he could 
tell me about the singers, he could tell me about the songs. 
And we started to have conversations.
    We talked about places we had both gone and I honestly 
never thought that I would have anything in common with an 
adult, but this had proved me wrong. In my 13 year old mind, I 
thought, ``Wow, this is fate. I mean we have met on the 
Internet. This connection, you know, is rare, and we have all 
these things in common.''
    And he was intelligent. And I think that was the thing that 
most attracted me to him. At 13, you think that you are a 
little bit more mature than the rest of your classmates at 
school, or you think that you know it all, and so I was 
definitely attracted to something like this.
    I did not think of it as a romantic relationship, but I 
wanted to see what could happen. I was not really sure. I did 
not think that any 23 year old guy would have much of an 
interest in a 13 year old girl.
    Over the next couple of months, we began corresponding via 
E-mail, the telephone. My parents did not know about this, and 
I did not tell my friends. I thought that they would pass it 
off as this is sexual. ``Katie, this is not a good idea. All he 
wants you as, he just wants you for sex,'' and this clearly was 
not.
    We never once talked about sex or anything romantic really. 
I thought he was a positive influence in my life. We actually 
talked about politics. There was a Presidential election that 
year, and we talked about the different campaigns, and he 
really made me feel mature. He really made me feel like I was 
someone special.
    And at 13 when you are trying to deal with issues of 
confidence and you are trying to find an identity, this made me 
feel just, oh, so special.
    He became my world; he became my best friend. He told me 
that I was beautiful, told me I was smart; he told me all the 
things that I thought I needed to hear at that age. And, yes, I 
did hear this from my parents, but my parents are not an older 
guy. And, a 13 year old girl, I think that anyone who has been 
in that position can understand what kind of value you would 
place on that type of attention.
    He kept on pressuring me to meet him and I was always 
hesitant. I did not know how that could happen. I was from 
Connecticut; he was from California. And I did not expect that 
I was going to invite him over to my house. I did not expect 
that I was going to go to California.
    While I did want to meet him, I just was not sure about 
logistically how it would work out. He once again suggested 
more meeting times. I tried to offer up that I was very busy, 
and in fact that I was going to Texas the next week for a 
national swim meet. He said, ``Well, why don't I come?''
    And before I could say no, I said yes. I think it was my 
emotional side taking over and just felt that I really did want 
to meet him.
    I was not sure what was going to happen. I did not know if 
he would come to the swim meet and watch me. But nonetheless, I 
did tell him where I was saying. And I was always so excited 
about seeing him that I never really thought I am meeting an 
older man off the Internet.
    I flew to Dallas, Texas, with my swim team, and my mother 
was a chaperon. And I was just so, so excited about seeing him. 
I went to dinner. He was supposed to arrive about 7:30 and he 
did not come. And I was a little disappointed that he was not 
there, so I went to bed.
    And then at 9:30 I got a call from him. I was staying with 
my swim mate, and he said he was there. I had told this swim 
mate, because she was a good friend of mine, about this 
relationship, and she once again said, ``Oh, he just wants you 
for sex.'' And that confirmed for me that, you know, I could 
handle this relationship. I was mature, I was responsible, this 
is different.
    She held herself against the door and said, ``No, you are 
not going to see him.''
    And I said, ``No, I am.'' I told her the room number where 
I would be going to and pushed her to the side.
    I know the scariest part to all of this was that I never 
thought that I was putting myself in a compromising situation. 
I never thought that I could be killed or raped. I never 
thought that Mark would be any other person than he said he 
was. I was always telling the truth about who I was and you 
trust so much.
    You are told to trust adults. And I did not think that 
anything dangerous could happen. I really felt like I knew this 
person.
    We had exchanged pictures, but his were from so far away 
that, you know, I could not make out any distinguishing 
features or details.
    I knocked on the door and opened it up, and I immediately 
saw an adult. I thought, ``Oh, my gosh, this is an adult,'' and 
I became very uncomfortable.
    I knew that he was an adult. I knew he was older. But over 
the Internet you buildup so much fantasy that reality does not 
have to be accepted. That was one of the things that I liked 
about the Internet, was that nobody judged me on it because 
they did not have reality right there.
    He invited me into the room, and I felt uncomfortable. He 
was trying to do anything he could to make me feel at ease. He 
started to talk about his flight. He missed his connection, and 
then he took me to the bathroom to show me that there was no 
soap dish.
    Then he tried to compliment things about my physical 
appearance like my hair, anything he could do to make physical 
contact. He sat me down. And it had been about a half and hour, 
and I thought, ``Well, okay. I should say goodbye and, you 
know, maybe we will meet tomorrow.''
    So I sat down on the sofa, was ready to say goodbye, and 
then he wanted to read my palm and tried to drag things out. I 
allowed him to read my palm; he told me I was going to have a 
rich and successful life. And then he looked away and he said, 
``Katie, I have been thinking about you all day and I have been 
thinking about doing this.''
    He leaned over; he kissed me, groped me, and essentially I 
was molested.
    I always thought that if I would be in a situation where I 
was receiving unwanted sexual advances that I would transform 
into Wonder Woman or I would, you know, be this strong person, 
especially because I come from a family of very strong women.
    Watching the DARE videos in my class at school, I thought 
those girls are so stupid. They should just fight back. But I 
realized in that moment you become so confused.
    I became completely numb and passive. I thought, ``Do I owe 
this to him? Of course, he did not come all the way from 
California just to have a talk.''
    I was very disappointed in myself and overwhelmingly I felt 
very dirty for what was happening. I felt that I had lost most 
of my innocence in those 10 minutes or so.
    There was a knock on the door, and I knew it was my mother. 
It was one of those things. Of course, I did not tell my mother 
about this relationship, but it was my gut telling me it was 
her.
    And it was her. She had gathered hotel police and security 
and come up and gotten me. My friend, who I was staying with, 
had told my mother. I felt very embarrassed and disappointed.
    And while I did feel relieved that I was saved, the 
feelings of disappointment and embarrassment dominated.
    I was taken upstairs and I was interviewed by the police. I 
wanted this all to go away. I did not want police interviewing 
me and whatnot. So I knew that if I denied that anything sexual 
had happened, this would go away.
    So I said that I had met him over the Internet. We had met 
there, but nothing had happened. Then they came back and said, 
``We have been talking to him for about 10 minutes and his name 
is not Mark, but it is really Frank Kufrovich. And he is not 
23, but 41.''
    They told me he was from California and that he was 
actually a wealthy financial advisor from the area.
    I thought to myself, ``Who in the hell had I been talking 
to for all this time?'' And yet the feelings that I had for 
Mark and this friendship that had progressed, I did not want to 
admit to myself that he had been lying to me all this time. And 
I felt very saddened by the fact that I was not going to be 
able to talk to him anymore.
    I went home. And the hardest part to all of this was going 
home. Everyone thinks that it would probably be those 10 
minutes in the hotel room, but no.
    I come from a community where something like this would 
probably be hidden. You probably would not talk about this; it 
would probably be one of those skeletons in the closet. But 
because this happened with my swim team there, it was all 
known, and girls wanted to share these rumors.
    So it went around my school that I was pregnant with his 
child and that I had given myself an abortion with a coat 
hanger in the bathroom, just horrible, horrible rumors. I was 
at the top of the class and now to be labeled as a slut or, you 
know, promiscuous, this was very difficult.
    I did not talk about it. I lost all of my friends. Parents 
in the town thought, ``Well, you know, she went to go meet him. 
Of course she is asking for it.''
    And parents were afraid that Frank would fly up from 
California and hurt their children. So I became like the Lolita 
of the town. I lost all my friends. It was a very alone and 
empty period.
    Ironically, I had lost my best friend already, who was 
Mark, and then I lost all my other friends.
    On top of that, I had parents who were trying to regularly 
shuffle me to psychologists because they thought, ``Well, if 
she is going to meet somebody off the Internet, then she must 
be crazy.''
    And you know, it kind of placated some of the parents in 
town. Well, you know, they are sending her for help. You know, 
let's hope that she is not crazy.
    It became so bad, in fact, that I went away to boarding 
school. I had to leave. I had to get a clean slate.
    And we began the judicial process. We learned that we could 
try Frank under the 1996 Communications Decency Act, but it was 
the first case and it required a lot of time. While most kids 
remember their adolescence making themselves up to get ready to 
go to dances or preparing for dates or going to the movies with 
friends, I remember cleaning the house getting ready for the 
FBI to come. I remember taking a polygraph test. I remember 
testifying for a grand jury.
    I do not remember getting ready to go to the dance. It took 
2 years to finally prosecute Mark and in that time, he first 
pled not guilty and then eventually did. The FBI uncovered that 
he had actually done this to several other girls, some using 
the Internet. Some he had hired locals in his community that 
worked with him at his office. And he had even done this to a 
boy. He had downloaded images regularly of child pornography 
that they traced through the Images Project.
    It was very hard for me to admit that this person that I 
knew could do this. I still longed for Mark, and I had to admit 
that this was really Frank. So I felt a lot of guilt. I felt 
that I was sending my friend to jail. Jail was a spot on the 
Monopoly board that you could pay fifty bucks to get out of. We 
could not do that with Frank.
    I knew where he was going and I felt very, very guilty. In 
fact, that guilt consumed me so much that one time I found 
myself in the shower with all my clothes on. I did not even 
know how I had gotten there.
    I then went to a psychologist and a psychiatrist. I was 
prescribed Buspar, which is an anti-anxiety prescription, and I 
was throwing up all the time, almost daily. I had blood vessels 
popping on my skin. And I was diagnosed with clinical 
depression.
    And I share this not to gross anyone out, but to share that 
it was a really difficult time in my life and that it does go 
on for quite some time.
    Frank eventually pled guilty and was sentenced to 18 months 
in jail. He has since been released. And I knew that that 
really was not the answer when he was sentenced. I did not feel 
that this was the end of it.
    Immediately after his sentencing, I came home and I began 
writing. I do believe that if it could happen to me, it could 
happen to any one. And I wanted to share my story with other 
girls across the country, which is why I wrote Katie.com. 
Hopefully they can read my story and see, well, if it could 
happen to Katie, it could happen to anyone.
    Everyone wants to know what is different about me. What is 
so special about me that I could have been a victim of the 
Internet? Why me?
    And they might want to blame the fact that my parents are 
divorced so that I would be one of those alone and isolated 
cases. Or they could think, ``Well, she was promiscuous. Maybe 
she was looking for a boyfriend.''
    I mean, we have to classify victims of sexual assault in 
some way, it seems, as our society says. But the real fact is 
that I was 13 and I was vulnerable. And pedophiles know this 
and they prey upon it.
    So I do think that there needs to be some kind of measure 
or monitoring of the Internet because parents cannot be 
everywhere. While some computers do have filtering software, 
that is not on every computer.
    As I travel the country, everyone thinks, ``Well, this is 
never going to happen to my kid.'' and they will tell me how 
intelligent they are, how special they are.
    I could say the same, that I thought I was never going to 
be a victim. I believe that if there were some type of 
monitoring system in place and if there was more education back 
in 1995, I do not think that I would have been a victim.
    I do not think that I have anything to add because there 
are so many experts from this field, and the best thing that I 
could offer is my own story. So at this point I will close and 
I thank you.
    [The prepared statement of Katherine Tarbox follows:]

                 Prepared Statement of Katherine Tarbox

    I was thirteen years old when I first started using the Internet. 
My parents received a disk in the mail offering my family free hours of 
America Online. This was 1995 and we didn't completely know what the 
Internet would bring into our home. The news focused on how this would 
help our lives; we could buy airplane tickets and my sister would be 
able to do a complete college search. We didn't think there were any 
potential dangers to having our computer plugged in with millions of 
others. We were wrong.
    I had used America Online once before at school with a project we 
were working on through CNN and thousands of others schools to help 
save the Everglades. We used the chat rooms to learn what other schools 
had done. We only went into chat rooms, and I didn't know that the 
Internet was meant to be resource tool and a communication tool. From 
the beginning of my Internet use, I thought of it as a place to meet 
people. I think I thought of the Internet the way an adult goes to a 
bar, they go there to meet people.
    When I first started using America Online in my house, I only went 
into teen chat rooms. I found some to be overly sexual, but for the 
most part I found people who I thought were teenagers. We would talk 
about our common interests, which could be swimming, popular bands, or 
movies. I didn't use it excessively, but found myself logging on about 
an hour a day. This is far less than the average child spends online 
today.
    It was a September Sunday morning when I met a guy in a teen chat 
room named Mark. I asked if anyone wanted to talk to a thirteen-year-
old girl from Connecticut, and he replied. I immediately found out that 
he was twenty-three years old and from California. I sat there and 
stared at my computer questioning if it was all right for me to talk to 
a twenty-three year old man. At first, I said no; however, I then said 
to myself ``this is only on the Internet, it can't hurt.'' I honestly 
didn't think I would have much in common with an older man, nor could I 
understand why he would have interest in talking to me. All this 
intrigued and persuaded me to continue.
    Mark asked what my favorite bands were. I answered, and then he 
also said he liked them too. Not only did he like those bands, but also 
he had been to concerts and could name his favorite songs. He then 
asked me where I shopped. Ironically, he also shopped there. He could 
also tell me styles that he had purchased there and products he 
frequently bought. We then talked about places we had both traveled to, 
and movies we had both seen. While the FBI may call this process 
grooming, in my thirteen-year old mind this was fate.
    At that age I didn't even know what a pedophile was. And though I 
didn't know what a pedophile was, I instinctively knew that I couldn't 
be a victim of one. I was a high-honors student, a national swimmer, a 
very accomplished musician, and I came from a loving family. Our 
society has labeled victims of sexual assault as being alone and 
isolated, or promiscuous. I wasn't those things, and so I never thought 
I could be talking to a pedophile. More importantly, the D.A.R.E. 
classes that I had in school taught me that rapists are usually 
uneducated and scary people. Mark was a very intelligent and caring 
person. This translated for me that Mark couldn't be a pedophile.
    We developed a friendship over a period of six months. It was 
platonic, and I can't emphasize that enough. It wasn't sexual. We would 
talk about politics, world issues, and a lot of pop culture. I could 
tell him my concerns about school, friends and family. This led me to 
believe that my friendship with Mark was beneficial in my life. I 
believed he was a positive influence in my life. Mark told me the 
things that I needed to hear at that age. He told me I was intelligent, 
beautiful and mature. At thirteen, while trying to develop a sense of 
identity, my confidence level is very low.
    There was continuous pressure from Mark to have an in person 
encounter. I wanted this, but didn't see how logistically it would work 
out. He was from California and I was from Connecticut. I knew I 
wouldn't go to California, and I didn't think it would be ok to have 
him over to my house. I hadn't told my parents about this relationship, 
because I didn't think they would understand the nature of it. I 
thought they would dismiss it as something sexual, when it wasn't, and 
force me to end it.
    Mark kept on suggesting times that we could meet, and I told him 
that I couldn't because I was going to Texas for a national swim meet. 
Mark said he would come along with, and before I could say no, I said 
yes. It was one week before the actual visit, and I was always in the 
honeymoon excitement period of finally meeting him. This excitement 
prevented me from rationalizing that I was going to meet an older man 
from the Internet.
    I traveled to Texas with my swim team and my mother. I stayed with 
one of my close friends, and my mother was down the hall. The friend 
that I was staying with was the only person I had told about my 
relationship. As I suspected, she passed it off as a sexual 
relationship. This reaffirmed that I was a little more mature than the 
rest of my friends, and could handle this friendship with Mark.
    At 9:30 Mark called my room and said he wanted to see me. I 
immediately headed for the door. My friend, Kerry, insisted that I 
didn't go and held herself against the door. I pushed her to the side, 
told her the room number of Mark's hotel room and headed to the 
elevator. I know the scariest part in all of this is that I never 
thought I was putting myself in a dangerous situation. I never thought 
I could be raped, or killed. I never thought Mark would be any other 
person than who he said he was.
    I knocked on the door and he opened it. We had exchanged pictures, 
but his was taken from so far away that I couldn't make out any 
distinguishing features. Standing at the door, I realized that this was 
an adult. I knew he was an adult, but on the Internet a lot of fantasy 
gets built up and you don't have to acknowledge reality.
    I felt very uncomfortable to be with Mark. He sensed this and began 
talking about the airport, soap dishes, my shoes, and other random 
subjects. He bounced around on topics, hoping to put me at ease. While 
there, I didn't know what was going to happen and I thought we would 
continue to have conversations like we had had over the phone.
    I had been there about thirty minutes, when Mark leaned over and 
said, ``Katie, I have been thinking about you all day and thinking 
about doing this.'' I knew what this was. He leaned in, kissed me, then 
groped me, and touched other parts of my body. Essentially, in those 
short fifteen minutes, I was molested.
    I always thought that if I were in a position where I was receiving 
unwanted sexual advances that I would be strong. Instead, in the 
moment, I became passive. I was confused. I thought, ``Do I owe to 
Mark? Of course he didn't come from California just to talk.'' I was 
disappointed in myself and felt very dirty as a result of him touching 
me.
    There was a knock on the door, and my gut could tell it was my 
mother. I knew how disappointed she was going to be, though I felt 
relieved that I was going to be saved. I know if she didn't come, I 
would have been raped that night. My friend had told my mother where I 
had gone. My mom gathered hotel security and police and came to the 
door.
    The police questioned me and I told them briefly what had happened, 
carefully leaving out what Mark had done physically. They came back and 
said, ``Miss, we have been talking to him for ten minutes and you say 
you have been talking to him for six months. His name is not Mark, but 
it is really Frank Kufrovich. He is not twenty-three, but actually 
forty-one. He is also a financial advisor from Los Angeles.'' As they 
told me this, I thought, ``Who the hell had I been talking to?''
    I realized that Frank could be doing this to anyone. At the same 
time, I didn't want to admit that Frank had lied to me. It was very 
hard for me to admit that Mark was a made up person, and that Frank was 
sick pedophile. I came forward and my family pressed charges, because I 
knew deep down it was the right thing to do. It was hard though, and I 
felt like I was betraying a friend.
    It took two years to prosecute him. In that time I lost all my 
friends at school because parents and my classmates blamed this on me. 
I eventually had to go away to a boarding school so that I could have a 
clean slate. Frank hired private investigators, who came and 
interviewed people in my town. I suffered from tremendous guilt, and I 
was diagnosed as being clinically depressed. I was taking a very high 
dose of Buspar, an anti-anxiety medication, which made me vomit almost 
daily. I had blood vessels popping on my skin making a rash. I even 
found myself in a shower with all my clothes on, not knowing how I had 
gotten there. I remember my adolescence by the times I went to the FBI 
for a polygraph test, or going to the psychologist. I don't remember 
putting on make-up preparing for the school dance. I think about that 
time as living hell.
    Frank eventually pleaded guilty. He was charged under the 1996 
Communications Decency Act with traveling interstate with the intent to 
have sex with a minor and using interstate communication to persuade a 
minor to have sex. Frank was sentenced to a mere eighteen months in 
Federal prison. He was released in October of 1999, and will be off 
probation by the end of this summer. The FBI found that Frank had raped 
several girls, and even a boy. He also married a girl that he began 
sleeping with when she was just thirteen years old.
    I wrote about my experience in my book, Katie.com, because I wanted 
girls to be empowered. While traveling around the country, speaking 
about my experience with the Internet, the most common question I get 
is ``What do you think was different about you that would make you a 
victim?'' I am sure they want to blame the fact that my parents were 
divorced, or use the excuse that my mother is a work-a-holic. These are 
not the reasons why I became a victim. The answer is that I was 
thirteen. Thirteen is a very vulnerable age, and it happened that I met 
someone who told me the things that I needed to hear at that age. This 
is especially true in today's society, where girls are told to live up 
to very unrealistic expectations. Every person is thirteen at some 
point, and every thirteen year old is vulnerable. Though their parents 
may think they are safe while on the Internet, they are not.
    There needs to be some type of regulation to control chat rooms on 
the Internet. Unfortunately there are too many pedophiles out there, 
and at the same time, there are many vulnerable teenagers using the 
Internet. Some of them may not give out their address, or their real 
name, but they give out other personal information, like their number 
on the field hockey team and their school. This is enough for a person 
to find them.
    Children don't realize the consequences to Internet relationships. 
I know this because I have communicated with thousands of girls through 
my website. If they don't know the consequences they will learn them, 
unfortunately, probably the same way I did. We need to step up and 
protect children while they surf the Internet. The Internet is an 
incredible tool, and should be used by all; however, it should be safe.

    Mr. Upton. Thank you very much, Katie. It is a nightmare 
that no family wants to experience, and we certainly appreciate 
you sharing your experiences with us today. Thank you.
    Our next witness is John Karraker.
    John, welcome.

                   STATEMENT OF JOHN KARRAKER

    Mr. Karraker. Thank you.
    Chairman Upton and Congressman Bass, thank you for the 
opportunity to testify today at this hearing entitled 
``Chatting On-line: A Dangerous Proposition for Children.'' 
Katie, your compelling story makes me realize how lucky I am 
and how lucky my family was. I appear today before you as a 
private citizen representing myself and, more importantly, as a 
father.
    My oldest daughter was nearly a victim of a sexual 
predator. I allowed her to engage in chat room conversations 
and utilize the Internet when I was not home.
    I found a phone message from somebody who sounded much 
older than my 13 year old daughter asking her to call him. When 
I questioned her about it, she denied having any knowledge of 
who this person was.
    Shortly afterwards, my ex-wife took a phone call in which 
the subject mistook her for my daughter. When he refused to 
answer her questions, she hung up on him.
    My daughter, at this point, still refused to provide 
details, but did admit to a long period of chatting with this 
person on the Internet and how he had eventually asked her for 
her number, which she did provide.
    I checked the computer for information, but this was not 
useful. She had deleted any information on identities from her 
Instant Messenger after being confronted on the first phone 
call.
    I believe now that she was trying to protect him, and if I 
had not disabled the Internet when I was not home and taken its 
use away except for monitored homework, it would have 
continued.
    The experience my daughter had fortunately did not have a 
tragic outcome, but I have to admit that it was more by luck 
than by parental intervention. We tried to instill in my 
daughter the possible dangers of meeting people on the 
Internet. We tried to tell her about sexual predators who were 
out there, people who would say anything to her to try to 
establish trust with her.
    Unfortunately, I then relied on the judgment of a young 
girl to make appropriate decisions. The computer was in its own 
room and I did not physically oversee its use.
    Parents must educate themselves and their children with the 
dangers of the Internet world. Monitoring must consist of more 
than just reviewing histories on the Internet. Children quickly 
learn how to delete histories and they will do it.
    Reliance on for-profit ISPs will be useless. When I 
contacted AOL, their attitude was they could care less. I tried 
to ask them for assistance and they told me that there nothing 
they could do.
    Law enforcement was also of no use at that time. Neither 
Federal nor local agencies would intervene as there was no 
crime committed. Even as a police officer who knew some of the 
type of individuals that exist in our society, I was lax. I 
thought that I had done my job by warning her.
    I have to admit that I also felt very frustrated that as a 
police officer, I could not make the system work for me and get 
somebody to take action.
    I would just like to express my opinion on several things 
that could and should happen. First of all, parents must 
educate themselves and their children and monitor activity. 
This is probably the most important piece.
    ISPs must be held accountable for what happens on their 
service.
    Laws must be enacted that allow law enforcement agencies to 
pursue potential predators.
    Finally, law enforcement agencies must be provided funding 
for equipment, training, and manpower. I can tell you as a 
police officer on the street that we do not have the knowledge 
that we need to have to take enforcement action or to recognize 
what the problem is.
    This problem is not going to go away, but it is only going 
to become larger.
    Thank you for your opportunity to address you.
    [The prepared statement of John Karraker follows:]

                  Prepared Statement of John Karraker

    Congressman Upton and other Members of the Subcommittee, thank you 
for the opportunity to testify today at this hearing entitled: Chatting 
On-line: A Dangerous Proposition for Children.
    I appear before you as a private citizen representing myself and, 
more importantly, as a father.
    My oldest daughter was nearly the victim of a sexual predator. I 
allowed her to engage in chat room conversations and utilize the 
Internet when I was not home. I found a phone message from somebody 
that sounded much older than my 13 year-old daughter asking her to call 
him. When I questioned her about it she denied having any knowledge of 
who the person was. Shortly afterwards my ex-wife took a phone call in 
which he mistook her for my daughter. When he refused to answer her 
questions she hung up.
    My daughter as this point still refused to provide details but did 
admit to a long period of chatting with this person on the Internet and 
how he'd eventually asked for her number, which she provided.
    Checking the computer for information was not useful, as she'd 
deleted any information on identities from her instant messenger after 
being confronted on the first phone call. I believe now that she was 
trying to protect him and if I'd not disabled the Internet when I 
wasn't home and taken it's use away except for monitored homework, it 
would of continued.
    The experience my daughter experienced fortunately did not have a 
tragic outcome, but that was more by luck than parental intervention.
    We tried to instill the possible dangers of meeting people on the 
Internet with my daughter. We tried to warn her of sexual predators who 
would say anything to lure her into meeting them. I told her they would 
try to establish bonds with her to make her trust them. Unfortunately I 
then relied on the judgment of a young girl to make appropriate 
decisions. The computer was in it's own room and I did not physically 
oversee its use.
    Parents must educate themselves and than their children with the 
dangers in the Internet world. Monitoring must consist of more than 
just reviewing histories of Internet use. Children quickly learn how to 
delete histories and will do it.
    Reliance on for profit ISPs will also be useless. When I contacted 
AOL their attitude was they could care less.
    Law enforcement was also of no use. At that time neither local nor 
federal agencies would intervene when no crime had yet happened.
    Even as a police officer who knew of some of the types of 
individuals that exist in our society I was lax. I thought I'd done my 
job in warning her. I also felt very frustrated that even as a police 
officer, I could not get anybody to take action.
    In my opinion several things must happen:

<bullet> Parents must educate themselves and their children and monitor 
        activity.
<bullet> ISPs must be held accountable for what happens on their 
        service.
<bullet> Laws must be enacted that allows law enforcement agencies to 
        pursue potential predators.
<bullet> Law enforcement agencies must be provided funding for 
        equipment, training and manpower. This problem is not going to 
        go away but only become larger.

    Mr. Upton. Thank you very much, John.
    Our next witness is a prosecutor in Kalamazoo County, Jim 
Gregart.

                    STATEMENT OF JIM GREGART

    Mr. Gregart. Mr. Chairman, Congressman Bass, my name is Jim 
Gregart. Believe it or not, I am the ``Ponytail Prosecutor'' 
for Kalamazoo County.
    I have been in criminal justice for over 40 years. At the 
beginning of my career, I would have thought this day of me 
testifying about computers and something called the Internet 
would have been as much lunacy as thinking of putting a man on 
the moon, but my, don't things move quickly?
    When first asked if I had anything to add to this hearing, 
I told Congressman Upton and staff, ``Well, sure. We have cases 
in Kalamazoo. There are not as many as large metropolitan 
areas, but we have some.''
    And then I asked my staff to bring together all the closed 
and open files and found out that we had more than I had 
thought. In a variety of different ways, the computer and 
technology have become part of America's criminal justice 
system.
    So in order to get an average fact pattern, I went through 
the cases we had. And then last Thursday at exactly 4:45 p.m., 
one more walked into my office. One of my team leaders said, 
``I understand you are going to testify next week.'' And then 
he handed me the charges he had just authorized against 
Kalamazoo's latest cyber predator.
    This kind of crime emanating, having its origins in chat 
rooms is not a widely reported phenomena, and yet it is 
occurring much more than we would like to admit, I believe, in 
America, somewhat like the status of domestic violence many 
years ago. There was a proliferation of it, but our polite 
society kept it below the genteel surface of public 
acknowledgement.
    Today there are many, many, many, many children being 
subjected to sexual assaults emanating originally from a 
contact made in an Internet chat room. Most of those instances 
are not being reported to the authorities for a variety of 
reasons, many of those articulated well by Katie.
    By the way, not only are you a survivor. You are a winner. 
You do not have to worry about your future. You are going to do 
exceptionally well.
    But here is the latest one from Kalamazoo. A 34 year old 
Kalamazoo County resident posing in an Internet chat room as a 
17 year old high school student begins a relationship with a 14 
year old high school freshman from another county in Western 
Michigan. Over a period of time, it results in a meeting, a 
personal meeting, and ultimately a sexual relationship of a 34 
year old adult male with a 14 year old female.
    That particular defendant now faces up to 35 years in a 
Michigan prison upon conviction. And we intend to convict the 
defendant.
    I grew up with the parental admonition of ``do not talk to 
strangers.'' Most of us did. Do not talk to strangers, and yet 
everyday in this Nation, in this state, and in this Middle 
American, quasi-agrarian community of Southwest Michigan, we 
have parents who repeatedly let their children talk to 
strangers.
    As John indicated, and I reinforce and validate, parents 
have to learn technology. I am a dinosaur. I am not hard-wired 
like young people today. I tried to stave off the tsunami of 
computer technology beyond my professional career. And then 1 
day I was just swamped. Technology came over the gunnels of my 
personal ship. So I had to learn technology.
    I have and I am now an information junkie on the Internet. 
Wow, it is a sad day when somebody like me starts learning 
about technology.
    Nevertheless, a lot of parents today intentionally remain 
removed. They will buy a computer. They will sign up for 
Internet service, and they will trust that their children will 
only use it for legitimate, educational purposes. Perhaps they, 
too, as I once thought, think that they are too old to learn 
about technology.
    Well, not taking the time to learn about technology is to 
do the equivalent of putting their children untrained, 
immature, behind the wheel of an automobile because that is the 
potential harm that can result. Nobody today in their right 
mind would think about letting their child without any kind of 
training, without any kind of experience, without any kind of 
guidelines, at the age of 12 or 13 get behind the wheel of a 
car and just take off wherever.
    Well, that is what happens when you get on the Internet. It 
is a cyber-playground; you can go anywhere in the world. You 
are a mouse-click from Europe. You are a key stroke from the 
Pacific Rim countries or you are a nanosecond from an adult 
pedophile predator.
    And they are lurking out there, believe me. Who would think 
that this is not Silicon Valley? This is not a big major 
metropolitan are. This is Kalamazoo; this is Southwest 
Michigan.
    But they are here. They are here, and they are not all down 
the street opening a car door and saying, ``Hey, little girl, 
want to see a puppy?'' or ``hey, want some candy?'' That is old 
kind of traditional view of someone who is trying to snare a 
child into his lair.
    Instead, they are not in cars on our streets. They are not 
walking around our playgrounds. Instead, they are in your own 
child's bedroom, if that is where you happen to keep a personal 
computer, or they are in your family room or they are in your 
den because they come to you almost close enough to touch your 
child via the Internet.
    I remember how proud I was in the early 1990's taking my 
two children to a seminar about the Internet because in the 
early 1990's it was truly an emerging technology. After we got 
our PC and we signed up with AOL, I remember them sitting at 
the table and saying, ``Guess who I talked to last night? 
Somebody in South Africa, somebody in Japan, somebody in 
countries all over the world.''
    I thought, ``This is terrific. What a cultural opportunity 
and education.''
    And like a dolt, John, you and I share. I guess this is 
True Confessions time. I never thought in the early 1990's 
about what could happen.
    There are hundreds and thousands of parents today, who have 
not yet realized the potential risk that their children are at. 
Katie's folks know; John knows; I know. Hopefully the majority 
of people in this room know. But yet there are hundreds and 
thousands of parents who still today let their kids get behind 
the wheel of a Ferrari at the age of 13 or let them talk to the 
stranger who opens the Internet door in the chat room and 
become inveigled.
    Kids at 13 and 14 are vulnerable. Let's admit it. Katie, 
you well articulated the vulnerabilities of an average 
youngster in America today.
    Are there lessons to be learned? Yep, from the old, grained 
prosecutor in Kalamazoo.
    No. 1, parents/custodians have to learn at least a modicum 
about technology, computers, and the Internet. You cannot 
blindly and blithely raise children without having some 
awareness of the benefits and the harms that are out there.
    Children, themselves, ought to be given some sort of 
training as to the appropriate use of the Internet and chat 
rooms.
    Third, a matter of sensitivity, and that is called 
monitoring. There are a variety of ways to monitor a child's 
use of chat rooms. Some of them are rather explicit and 
express. And then there are others that are more shall we say I 
will choose the word ``secretive,'' clandestine?
    In one recent case in Kalamazoo County, I have here the 
instant messaging printouts that a parent took off of his 
child's computer. This relates to a charge of sexual assault 
against an adult male preying upon a young juvenile.
    But there are software programs available where parents can 
not just monitor keyboard strokes and track that, but even 
instant messaging now.
    So if I can say one thing to parents, ``do not let your 
children talk to strangers, not just in the playground or out 
on the street, but in your own home.''
    Thank you.
    [The prepared statement of Jim Gregart follows:]

    Prepared Statement of Jim Gregart, Kalamazoo County Prosecuting 
                                Attorney

    I'm Jim Gregart, the elected Kalamazoo County Prosecuting Attorney. 
Don't let my ponytail fool you. I'm a law & order former police officer 
from Detroit and have been a prosecutor in Kalamazoo for the past 32 
years. I first began my career in criminal justice just two years after 
the Detroit Lions last won an NFL championship. That fact alone gives 
you some idea of my professional longevity and the vast changes I've 
experienced in the nature of crime in America.
    As a criminal justice college student in the 1950's, the idea of me 
someday testifying before a Congressional Subcommittee on something 
called ``Internet Computer Crime'' would have been equally screwy as 
putting a man on the moon. Nevertheless, today my job requires that I 
both regularly use and understand a complicated technology that was 
only ``science fiction'' a mere 15 years ago.
    When Congressman Upton asked me to testify at today's hearing, I 
had my staff pull our closed and pending files on computer crimes. To 
be honest, there weren't that many. You see, . . . the Prosecutor or 
District Attorney usually sees a criminal case only when the police 
first have a crime reported to them and then only when they're able to 
uncover sufficient admissible evidence to support a provable offense. 
The lack of victim reporting is the first impediment to the successful 
prosecution of adults who use Internet chat-rooms to prey upon 
children.
    All reasonable people acknowledge that this type of crime occurs in 
America. But, the reporting of it to law enforcement officials can be 
likened to an iceberg, i.e. we only see a small portion of a much 
larger mass which lurks beneath the genteel surface of millions of 
legitimate Internet communications. Untold numbers of chat-room 
initiated sexual assaults of children are not reported to the police 
because either (1) the actual child victim chooses not to disclose the 
offense, or (2) parents or guardians are unaware that the offense 
occurred, or (3) the Constitutional right of a criminal defendant to 
confront and cross-examine their accuser in a public trial sometimes 
acts as a subtle deterrent to reporting the crime.
    It takes genuine courage for a victim and their family to do what's 
right; even though it may be difficult and personally embarrassing. I'm 
aware of cases in my jurisdiction where victims and their families have 
chosen not to cooperate with law enforcement investigators. Thus, their 
alleged assailants have never been brought to justice.
    However, that was not the decision made by one West Michigan child 
and her family only last week. This 14 year old high school student and 
her family are cooperating with local law enforcement officials. 
Because of their cooperation, this child's 34 year old Kalamazoo sexual 
assailant now stands charged with a violation of Michigan's law 
prohibiting the Use of Internet Communications to Commit a Crime and 
two (2) additional Counts of Criminal Sexual Assault. Upon conviction, 
this pedophilic cyber-predator will face up to 35 years in a Michigan 
prison.
    To some folks, Southwest Michigan may seem far removed from the 
threat posed to children by adult Internet chat room predators. 
However, nothing could be further from the reality of today's 
technologically shrinking world. Anyone sitting at a computer in 
Kalamazoo is merely a mouse-click away from anywhere in the world. Any 
child could be merely a keystroke and nanosecond removed from the chat 
room babble of a masquerading adult bent on predatory sexual assault. 
In my community, we've had adults travel from other states to sexually 
assault local children whom they've first encountered and deceptively 
cajoled via Internet chat rooms.
    Last week's case, however, is uniquely Michigan. The defendant 
lives in Kalamazoo county while the 14 year old victim resides in 
another West Michigan community. Late last year, the chat-room 
phenomena brought them together in cyberspace. This 34 year old adult 
identified himself to the victim as a 17 year old high school senior. 
The victim, however, readily identified herself to the defendant as 
only being a 14 year old high school freshman. Over a period of time, 
their keyboard communications transmuted into a personal meeting and, 
ultimately, repeated acts of sexual assault. Fortunately, this young 
girl has the personal courage and strong support of her family. They 
evidence a determination to pursue justice.
    Since this criminal prosecution is currently pending in our local 
courts, I'm not at liberty to publically provide details of the 
offense. That would be prejudicial to the defendant's Constitutional 
right to a fair trial. However, I can tell you that, with a court 
ordered Search Warrant, we've seized the defendant's computer and 
allied records. The police now have a list of approximately 20 
additional female names that they've starting checking. Right now, we 
have no idea of the ages of these females. But, we will soon find out.
    Are there lessons to be learned from this most recent and other 
similar cases in ``middle America''? Yes, . . . and, the first one is 
to recognize and acknowledge that crimes like this can and are 
happening everywhere in this Nation; even in a quasi-agrarian area like 
Southwest Michigan.
    Secondly, parents and guardians can no longer blithely ignore the 
tidal wave of technology which has engulfed our society. Not too long 
ago, I honestly thought I could stave-off learning about computers 
until my life expectancy and net worth simultaneously arrived at 
``zero''. Boy, was I ever wrong! And today, any person responsible for 
the well-being of a child would also be wrong to not educate themselves 
about both the promise and perils of computers and the Internet.
    When the automobile was first invented, it changed the world much 
for the better. However, when driven recklessly by young people, that 
same automobile can become an instrument of peril and death. Most 
adults would not place their child behind the wheel of this potentially 
dangerous machine without first providing adequate education, training 
and constant monitoring of their child's driving performance. Well, 
computers and the Internet hold the same promise for both positive and 
negative outcomes for children.
    When used properly, the Internet and chat rooms can be a wonderful 
experience for children. But, without adequate preliminary education, 
safeguards and monitoring, they can become the equivalent of putting an 
untrained youngster behind the wheel of a Ferrari and hoping for the 
best. In today's world, the technological speed of a computer chip 
almost seems to be rivaling that of a Ferrari. The reckless use of a 
motor vehicle can hurt a child. That same reckless and uncontrolled use 
of the Internet and chat rooms can likewise place children at risk of 
physical and emotional harm.
    When I was a child, I remember my parents repeatedly telling me, 
``Don't talk to strangers''. That was good advice back then and I gave 
my own children that same constant admonishment. My kids are now in 
their mid-twenties. But, as I look back to their teen-age years, I'm 
chagrined to admit that I knowingly permitted them to violate my own 
warnings. As a matter of fact, back then, I was ignorantly pleased when 
they told me about their new young cyber-friends in far away countries 
who they met via Internet chat rooms. Fortunately for everyone, my 
children benefitted immensely from their early exposure to foreign kids 
and cultures. For them, it was a meaningful educational experience. 
However, ten years ago, it was also a risk of harm that I didn't fully 
comprehend or appreciate.
    Today in America, parents continue to warn their children about the 
dangers of ``talking to strangers''. What many parents don't yet fully 
understand is that those same ``strangers'' are not just on public 
streets or parks. Today, the ``strangers'' to be feared may also lurk 
in your own family room or child's bedroom. They live behind the 
innocent facade of a computer screen and talk to your children in chat 
rooms on the Internet. In an earlier time, they were the same 
``strangers'' who parents feared would lure their child into their 
grasp with promises of candy or a puppy.
    Now, those very same ``strangers'' use the anonymous cover of an 
alias Internet identity to disguise themselves as children. They now 
use a keyboard to probe for the emotional vulnerabilities of 
unsuspecting youth. They're the same predators of yesteryear who now 
use Internet chat rooms in lieu of an open car door and an offer of 
candy or a lost puppy. The challenge for today's parents is to insure 
that children ``don't talk to strangers'' both outside and inside their 
own homes via unfettered, unmonitored Internet and chat room access. 
Thank you.

    Mr. Upton. Thank you very much, Jim.
    Ruben Rodriguez, thank you so much for coming out from 
Washington today.

                 STATEMENT OF RUBEN D. RODRIGUEZ

    Mr. Rodriguez. It was my pleasure, Mr. Chairman, Mr. Bass.
    I have written out a bunch of the things that I wanted to 
talk about. But listening to Katie's story, I have had the 
pleasure of appearing with Katie before, and I echo the earlier 
comments that she is a very brave young lady and we hope to 
work with her in the future, absolutely.
    Let me tell you a little bit about the National Center. The 
National Center has been in creation since 1984. While 
everybody knew for many, many years that the center was the 
clearinghouse for missing children, nobody really knew about 
the other resources and the other issues that we have dealt 
with, and that obviously was the issue of the exploitation of 
children.
    Before coming to the National Center 12 years ago, I spent 
20 years in law enforcement in Washington, DC, working with 
traditional crimes. And only when I started at the National 
Center did I really ever work on children-related issues, more 
so in 1997 when I took over the unit, and I started seeing the 
problems that are out there on the Internet.
    When I was in law enforcement back in the 1970's and 
1980's--I am dating myself now--there was no such thing as the 
Internet and computers. We were still using typewriters and 
word processors for computers, and most people did not even 
know to spell the Internet, other than use it, and that was in 
law enforcement.
    And I thought that we were cutting-edge in Washington. 
Since I was able to work on data bases, it was very helpful. 
But then the Internet was another world that we knew nothing 
about.
    When I started at the Center, still the Internet was not an 
issue. The National Center's Web site did not go into 
production until 1995 anyway or 1996. In 1997 we developed the 
Exploited Child Unit. And in 1998 we developed the Cyber 
Tipline to allow the public to report incidents of child sexual 
exploitation.
    In the first year of operations, we had over 17,000 
reports. Today we have over 71,000 reports; 1600 of those have 
to do with chat.
    Now, it does not seem like a large number when you say 1600 
compared to 71,000, but when you look at the history of these 
individuals in these cases, most of these cases go unreported 
because parents, like John said, become aware of it and they 
say, ``Well, we have stopped it. So we can take care of it. It 
is not a problem. We have already reported it to the on-line 
service provider. We have, you know, put in software to stop 
access to the Internet and block access to the Internet. The 
problem is solved.''
    Of course, not knowing the predator or the sexual molester 
or cyber pedophile, whatever you want to call it, these 
individuals do not do this once. They have been out there for 
years. They have been sitting there doing this via mail, on the 
playgrounds, and now they have this medium, this anonymous 
medium, to communicate among themselves and also go into 
predicated areas to find children.
    I use the analogy of if you want to go to buy meat, you go 
to a meat market. When you want to go find children on the 
Internet, you go to areas where children congregate.
    These individuals are experts in the seduction of children. 
They spend hours and days sitting on the computer. Katie 
mentioned that this individual knew everything about music 
groups, songs, name albums. And this is what they do for a 
living.
    If I am looking for a 15 year old child on the Internet, I 
am going to learn what are the interests of these individuals. 
What is the interest? How can I get to them? How can I get 
close to them?
    They will spend days and hours. What most people do not 
realize about chat is that it is a one dominion environment. 
You can have simultaneous conversations with dozens of people 
at the same time, different levels of seduction. They do not 
mind spending months, weeks, and years going after kids because 
there are so many of them out there that they do not mind 
investing the time and the effort. All they have to do is hit 
one and they have dealt with their fantasies. They have taken 
it beyond that.
    Mechanism of chat is made to order for these individuals. 
Direct text communications: you have a captive audience. A 
child is looking at a computer screen and so you have their 
full-time attention. And you can manipulate, build trust 
relationships, as Katie mentioned. They want to be your friends 
because the ultimate conclusion for them is sexual motivation. 
They want to go meet this child.
    Most individuals enjoy just the fantasy of it. 
Unfortunately, there is an all-too-large group that want to go 
beyond that and actually meet the children.
    The numbers are growing. Federal law enforcement officers, 
State and local law enforcement agencies are getting funding to 
do these programs. It is not enough. Not so much for the 
Federal entities, but the State and local law enforcement 
officers, as he mentioned earlier.
    Your victim is local. Your law enforcement agencies are 
local. You have over 17,000 law enforcement agencies in the 
United States. You have three major law enforcement agencies: 
the FBI, U.S. Customs, and the U.S. Postal Inspection that work 
child pornography related issues, traveler cases, whatever.
    But it is your State and local law enforcement agencies 
that have the areas where the suspect lives and where the child 
resides. So I would obviously encourage the use of Federal 
funding to go into those initiatives.
    I am privileged to belong to the Internet Crimes Against 
Children Task Force's Board of Directors. Thirty regional sites 
throughout the United States are working this issue. Michigan 
has an I-Tec task force that is very proactive.
    I would like to see many of those throughout the United 
States to help State and local law enforcement agencies, to 
train them. It is not really investigation they are involved 
in. They are also involved in outreach to the community.
    There are several programs that work effectively throughout 
the United States. And I would like to see more funding going 
into those initiatives.
    I can sit here and spit out numbers, and it does make some 
sense when you are looking at the totality of the problem. But 
we are just touching the tip of the iceberg. The problem is 
much bigger than most of us realize.
    There was a study done by the FBI in North Carolina at a 
rehabilitation hospital, where they talked to offenders who had 
molested children. And the first time they talked to the 
offenders, they admitted to doing 4 or 5 children. They were 
talking to, I think, 30 offenders.
    When the study was over, they averaged that each one of 
these offenders were doing at least 300 children before they 
were apprehended. So the problem is getting bigger.
    As the Internet fueled this, it has allowed access. These 
individuals used to go to the playgrounds, used to look at 
children, follow them, stalk them. Now they have a medium where 
they can do it without any risk to themselves.
    The risk is when they actually go to meet the child. In 
many cases, as I mentioned earlier, fantasy is sufficient for 
them. Unfortunately, there are those who take the fantasy 
beyond that. They use child pornography to lower inhibitions of 
the child. It is not so bad. The child is smiling. Different 
levels of undress. All of that is used by chat. You can append 
images and add information, URL information.
    It is a community where kids are curious. They go out there 
and put themselves in harm's way unfortunately, and because of 
their curiosity, they are very trusting, as Katie mentioned. 
They are somewhat flattered when an individual pays attention 
to them, when they tell them, ``Yeah, I am just a little bit 
older than you. I am 18, 19, 23,'' when unfortunately the 
gentleman is 45 or 50 years old.
    We see it all too often. At the National Center we see this 
information coming on in avalanches now. I say the first time 
that we started this, we had 17,000 reports. In less than 4 
years, we have 71,000, and we are just touching the tip of the 
iceberg.
    The ISPs have come to the table because they were 
forwarding information to us on not only child pornography, but 
also on unsolicited E-mails and chat complaints which is great 
for us. Of course, it is making my work load much higher and 
hard, but, again, that is our job.
    I could go on and on, but I just wanted to agree with many 
of the things that were said here before me: effective 
prosecution, funding for law enforcement, and outreach programs 
for children and parents.
    The first line of defense is the home. The analogy again is 
when you want to teach a child how to drive, you do not throw 
them a set of keys and say, ``Have at it.'' You sit with them, 
teach them the rules of the road. You praise them when they do 
well and correct them when do wrong.
    People do not think of the Internet and the computer as the 
same. It is. You turn on the computer and you let the world 
into your home.
    Thank you.
    [The prepared statement of Ruben D. Rodriguez follows:]

Prepared Statement of Ruben D. Rodriguez Jr., Director, Exploited Child 
        Unit, National Center for Missing and Exploited Children

                                SUMMARY

    Mr. Chairman and members of the Committee, I am pleased to appear 
before this subcommittee today to express my views on the potential 
dangers of unsupervised online chatting by our nation's youth. As a way 
of introduction, I have been involved with the National Center for 
Missing and Exploited Children and the issue of missing and exploited 
children since my retirement from the Metropolitan Police Department of 
Washington, D.C. in 1990. In 1997 I was made the Director of the 
Exploited Child Unit. One of the mandates of this unit was the creation 
and development of an online reporting mechanism for the public to 
report incidents of child sexual exploitation. To date we have received 
over 71,000 reports, 1,600 of those reports are attributed to the use 
of chat to entice, seduce and exploit children.
    While this medium has offered great opportunities for children and 
adults alike to conduct research, communicate, meet and chat with new 
friends throughout the world, unfortunately in certain instances it has 
also become a vehicle for those who prey on the unsuspecting. 
Oftentimes, criminals misuse new technology before law enforcement 
acquires the tools and expertise to counter such uses.
    The 2000 Census reports that 9 out of 10 school age children, ages 
6-17 years of age have access to a computer. In addition, 4 in 5 
households with access to the Internet had one or more members using 
the Internet (44 million households). Recent figures put the current 
number of children online to an estimated 10.5 million. The usage time 
by teens between 16-17 years old illustrates that 32% of these youth 
spend 5 or more hours online per week.
    We at the National Center's Exploited Child Unit are aware of 
serious incidents where children who communicate in web-based Chat 
Rooms, IRC or Instant Messaging with individuals who they believe are 
peers or friends, who eventually turn out to be individuals who are not 
who they say they are. All too frequently, we see children traveling or 
meeting these individuals and find out all too late that they have put 
themselves in harm's way.
    I have been asked on numerous occasions by the media and parents, 
``what can one do to safeguard our children?'' and I have always 
believed that it starts in the home. Law enforcement and organizations 
like the National Center's CyberTipline only get involved when it is 
too late. We believe that a comprehensive education program should be 
instituted in the home to address these issues. In this respect the 
National Center has created NetSmartz, which is the Center's proactive, 
educational approach to fighting online predators. The materials 
developed by the NetSmartz Workshop are designed to be a proactive, 
educational approach to helping children build self-confidence in order 
to better handle and protect themselves in all types of situations.

                     THE DANGERS TO CHILDREN ONLINE

    Many parents have a false sense of security regarding the risks to 
their children in cyberspace. They feel that their children are at 
home, often in their own rooms, doing something positive and useful for 
their future. Many parents have little knowledge about computers and 
what their children are doing online, and feel that there is little 
risk. Similarly, many children view cyberspace as a variation on their 
computer or video games. As a result, they may not view encounters with 
people online with the sense of caution or skepticism that they apply 
to meeting strangers in the ``real'' world. Further, chat is one of the 
most popular pastimes of children online. Numbers are hard to come by, 
however on American Online, over 100,000 people chat simultaneously in 
over 20,000 chat rooms.<SUP>1</SUP> Teenagers, especially, enjoy the 
anonymity and experimentation chat rooms provide. This, combined with a 
lack of guidance by parents and the grooming and seduction by a sexual 
predator, may lead to a child's victimization online.
    Just as teenagers enjoy the anonymity offered to them through chat, 
pedophiles also use this avenue to their advantage. Pedophiles 
organizations were one of the first criminal groups to exploit Internet 
technology. The computer has provided pedophiles with ``an ideal means 
of filling [their] needs for validation, organization, and pornography 
[as well as] finding potential new victims.'' <SUP>2</SUP> <SUP>3</SUP>
Types of Risks to Children in IRC
    Online Enticement of Children for Sexual Acts: By the year 2002, 
more than 45 million children will be online.<SUP>3</SUP> For sexual 
predators, this makes the Internet the largest existing playground and 
the fastest way to meet potential victims. Beginning with the 
``harmless exchange'' of personal information, sexual predators 
empathize with the child's frustrations with puberty and parents and 
engage him or her in sexually explicit conversations. The predator may 
send adult and child pornography to lower the child's inhibitions and 
eventually arrange a face-to-face meeting for sexual purposes. 
Therefore, chat rooms often become distorted playgrounds for these 
predators. They can pose as someone else, approach children with 
seductive offers, and eventually violate a child's privacy and 
security. As of May 1999, the National Center for Missing and Exploited 
Children (NCMEC) has been involved in approximately 599 ``traveler'' 
cases in which a child left home or was targeted by an adult to leave 
home via the Internet. As of May 2002 the National Center received of 
over 1,600 cases involving Chat and Chat Rooms.
    Distribution of Child Pornography and Pedophile Materials: The 
number of pedophiles and child molesters using the Internet is unknown, 
but the IRC, in particular, is an ideal medium for numerous pedophile 
activities:

Distribution of Child Pornography: According to some police estimates, 
        as many as 80,000 child pornography files are traded online 
        every week.<SUP>4</SUP> Pedowatch also reports that 
        approximately 1,500 people join the preteen erotica trading 
        channels on IRC's Undernet everyday.<SUP>5</SUP> The IRC 
        provides a fast, easy, effective and discrete method to trade 
        images of child pornography.
Exchange of Pedophile Materials: The IRC provides pedophiles the 
        opportunity to engage in discussions regarding their sexual 
        deviance and exchange pedophile information in a relatively 
        anonymous forum. This only serves to assist them to validate 
        and rationalize their behavior. Also, it has been hypothesized 
        (although not scientifically proven) that the easy access to 
        child pornography images and increased ability to locate those 
        individuals who have similar interests in children may 
        contribute to an individual with latent tendencies to act out 
        and sexually victimize a child.

How does the IRC facilitate the victimization of children?
    Lack of monitoring: Operators of IRC servers do not maintain any 
type of logs of what occurs on the channels of their servers. Unless 
turned on by users through their client software, whatever is said in a 
channel is lost after an individual logs off of the server.
    Channels can be easily created: Channels can be instantly created 
and can be invite only requiring a password to enter. Since there is no 
governing body of the IRC, it is easy to establish private chat 
channels for the exchange of images, pedophile materials and private 
one-on-one conversations.
    Nicknames can be easily changed: Once in IRC, it is extremely easy 
to create a channel. Unlike chat rooms through online service providers 
(which have unique and traceable screen names assigned to them), an IRC 
user can instantaneously change their nickname and re-enter the chat 
room as someone else. This makes identifying and tracking IRC users 
more difficult.
    Jurisdictional Questions: The IRC is a global medium with no 
governing body. This, coupled with the ability for a user to download 
free client software, makes it extremely difficult to regulate. 
However, individuals within a channel can be held accountable for 
criminal actions.
    Direct Client-to-Client Connection: One of the most useful features 
of IRC for pedophiles is the ability to send and receive files outside 
the IRC network. This feature, called Direct Client to Client (DCC), is 
the most secure form of communication available on IRC. Messages and 
files sent via DCC are sent by a direct connection (not part of the IRC 
network) between two individuals; therefore, they are difficult to 
track unless you are one of the recipients of the message or file.

Law Enforcement Response to Date
    The IRC presents unique challenges to law enforcement to protect 
children from sexual predators. Although it is possible to trace the 
identities of those using IRC for illegal purposes, evaporation of 
electronic audit trails, the use of encryption and steganography, and 
the ease with which predators can avoid detection through fake cyber 
identities and other computer tricks are challenges law enforcement 
face every day. In addition, most law enforcement is ill prepared to 
address computer-related crimes due to lack of training and necessary 
equipment (e.g., an Internet connection). In most countries, law 
enforcement is playing catch up to an exploding epidemic of computer 
crime.
    Recognizing the need for resources to combat Internet crimes 
against children, the United States government has taken an active role 
in assisting federal and local law enforcement. In 1995, the Federal 
Bureau of Investigations (FBI) created the Innocent Images Task Force 
to conduct and coordinate online undercover investigations on cases in 
which individuals use computers to lure children into illicit sexual 
relationships, and to investigate those individuals who produce, 
manufacture and distribute child pornography. Through March 31, 2002 
Innocent Images has opened 7,067 cases, has filed 1,811 Information/
Indictments, and has 1,850 convictions. The United States Customs 
Service also plays a crucial role in investigating child pornography 
trafficking and pedophile organization cases. They were the first 
federal law enforcement agency to initiate a comprehensive computer 
child pornography case. During fiscal years of 1998 through 2001, the 
United States Customs Service investigations produced 874 convictions.
    In 1998, the United States Congress provided the Department of 
Justice's Office of Juvenile Justice and Delinquency Prevention over 
two million dollars to create ten Internet Crimes Against Children Task 
Forces on the local or state level. The ICAC Task Force Program 
``encourages communities to develop regional multi-disciplinary, multi-
jurisdictional task forces to prevent, interdict, and investigate 
sexual exploitation offenses against children by offenders using online 
technology.'' <SUP>6</SUP> The ICAC Task Force Project has a current 
financial commitment of over $7,000,000. The Project currently includes 
30 Regional Task Forces and over 45 satellite programs, throughout the 
United States.

What Can Hotlines Do?
    Hotlines can play a vital role in protecting children in cyberspace 
through a strategy of prevention/awareness resources, training and 
technical assistance to law enforcement and working closely with the 
online industry.
    To provide a reporting mechanism for the public to report incidents 
of child sexual exploitation: On March 9, 1998, key public and private 
sector leaders joined with NCMEC to launch the new CyberTipline, 
www.cybertipline.com. The Tipline was created for parents to report 
incidents of suspicious or illegal Internet activity, including the 
distribution of child pornography online or situations involving the 
online enticement of children for sexual exploitation. Seven days per 
week, 24 hours per day, NCMEC is fully staffed to handle leads, and 
then distribute those leads to the appropriate law enforcement 
agencies.
    Effective that day, the FBI's Innocent Images Task Force, the 
Crimes Against Children Unit at FBI Headquarters, the US Customs 
Service CyberSmuggling Unit, and the US Postal Inspection Service have 
immediate access to all data received on the CyberTipline via the web. 
Thus, these primary federal law enforcement agencies are immediately 
able to receive, access and review all CyberTipline leads.
    The CyberTipline is also uniquely positioned to gather important 
data on these types of Internet crimes against children. It is the hope 
of NCMEC to be able to conduct in-depth analysis of trends and patterns 
in these types of cases in the near future.
    To prevent child victimization in cyberspace through aggressive 
prevention/education and outreach programs directed toward parents and 
children: NCMEC is seeking to reach into millions of homes and 
classrooms with positive, common sense rules for Internet safety. 
Through two publications, Child Safety on the Information Highway and 
Teen Safety on the Information Highway, NCMEC's message for parents 
focuses upon strong parental involvement in their children's lives, 
increasing parental knowledge and awareness about computers and the 
Internet, and the importance of parent-child communication.
    Likewise, NCMEC is reaching out to children with basic rules for 
safety on the information highway, including cautions not to give out 
personal information online, and not to meet someone they encounter 
online. A cornerstone of this effort is the National Center's 
``NetSmartz'' initiative. The program goals are to: enhance a child's 
ability to avoid victimization, reduce the feelings of guilt and blame 
that are often associated with victimization, encourage children to 
report victimization to a trusted adult, support and enhance community 
education efforts and to increase communications between adults and 
children about online safety.
    To advocate help for parents through the development of technology 
tools and access controls: NCMEC supports efforts to provide help for 
parents through blocking software and access control tools like 
SurfWatch, Net Nanny, and similar products, enabling parents to limit 
areas of the Internet to which their children have access. While such 
tools should not be viewed as substitutes for basic parenting, nor do 
they prevent adult predators from going to where the children are on 
the Internet to seek their victims, nonetheless they are useful tools 
for parents to provide an extra layer of protection for their children.
    To target and educate those who are most at risk: Parents and 
teachers are often surprised to learn that young children are not the 
most common victims of abduction and sexual assault. In fact, twelve to 
seventeen year old teenagers (especially girls) are the most victimized 
segment of the United States population.<SUP>7</SUP> A review of NCMEC 
data also shows that in 72% of the missing child cases involving the 
Internet, the victim was 15 years of age or older. In 83% of these 
cases, the victim has been female. As a result, the Know the Rules 
Campaign was launched in March 1998 as a national public service 
campaign targeted to girls ages 11-17. The educational messages in this 
campaign convey strength and are designed to leave girls with a sense 
of empowerment.
    To promote a national campaign of aggressive enforcement: NCMEC 
feels that the most important element of its Cyberspace Strategy is 
aggressive enforcement by federal, state and local law enforcement, 
directed against those who misuse the Internet for criminal purposes. 
Oftentimes, criminals misuse new technology before law enforcement 
acquires the tools and expertise to counter such uses. To assist law 
enforcement, NCMEC is involved in the two courses specifically 
targeting Internet crimes against children.

<bullet> Protecting Children Online Investigator's Course: This 4\1/2\ 
        day course is held monthly across the United States, and was 
        designed to enhance law enforcement's ability to investigate 
        Internet crimes against children. Topics covered include: 
        recognizing and identifying computer crimes against children, 
        orientation to computer technology, conducting the 
        investigation, legal issues, case preparation and follow-up, 
        and resources and prevention.
<bullet> Protecting Children Online Unit Commander's Course: This 2\1/
        2\ day course is held monthly at NCMEC headquarters in 
        Arlington, VA. The purpose of this training program is to 
        provide law enforcement unit commanders with an understanding 
        of the key management issues for the effective investigation, 
        prosecution, intervention, and prevention of computer crimes 
        against children.
    To establish relationships and work closely with the online 
industry: One of the exciting elements of this initiative is that the 
online industry is a strong partner. Leading companies including 
America Online, Microsoft, CompuServe, AT&T, NetCom, the Interactive 
Services Association, and others are providing financial support and 
have committed to promote the CyberTipline through their subscribers 
and supporters.
    The following are examples of some of the public/private 
initiatives involving NCMEC:

<bullet> On February 10, 1998 NCMEC joined with SurfWatch, maker of the 
        first Internet filtering product, in a partnership to provide 
        leads to NCMEC and its CyberTipline. SurfWatch is creating an 
        online capability on its website for its users and customers to 
        report child pornography or child exploitation directly to 
        NCMEC and its CyberTipline. We are hopeful that other companies 
        will follow this example, helping NCMEC promote the 
        CyberTipline and provide the most direct linkage for users, so 
        that when they encounter inappropriate or questionable 
        material, they can easily and immediately link with NCMEC's 
        CyberTipline and provide their information.
<bullet> America Online began a program with NCMEC called ``Kid 
        Patrol,'' through which NCMEC can take images and breaking 
        information directly to AOL users. It is our vision that this 
        effort will become a kind of two-way communication vehicle 
        using cyberspace.
<bullet> Similarly, Lycos, the search engine, has joined with NCMEC to 
        leverage the Internet for child safety, taking images and 
        information to Lycos' users, and making it easier for users to 
        get to NCMEC.
    Thank you for the opportunity to express on concerns. As always, I 
hope you will view NCMEC as a resource. We stand ready to assist in any 
possible way.

                                Endnotes

    \1\ L. Gibbons Paul, Family PC, February 16, 1999, www.zdnet.com
    \2\ K. Lanning, Use of Computers in the Sexual Exploitation of 
Children, 1999.
    \3\ BIND/VP's Emerging Technologies Research Group and Grunwald 
Associates
    \4\ ZDNet, 11/19/97
    \5\ Pedowatch, Pedophilia on the Internet, pedowatch.org
    \6\ Federal Register: May 7, 1999 (Volume 64, Number 88), Page 
24855-24860
    \7\ Bureau of Justice Statistics Sourcebook of Criminal Justice 
Statistics--1996. Washington, D.C.: Office of Justice Programs, U. S. 
Department of Justice, pages 210-11.

                             WHAT IS CHAT?

    Chat refers to an Internet application that allows two or more 
people to carry on a text ``conversation.''
    Chat is available through: Commercial Internet service; IRC 
(Internet Relay Chat); and Web-based Chat Service, i.e. Yahoo Chat, 
etc.
    Internet Relay Chat: Internet ``chat'' function that enables two or 
more people to carry on a text ``conversation.'' IRC networks are 
comprised of servers around the world linked to each other. User needs 
IRC software on their computer to use IRC. User selects a network, 
server and channel. A ``real-time'' chat screen opens, allowing typed 
conversation between people on the same channel.
    Instant Messaging or IM: Software is installed on you computer. 
When you run the software and connect to the Internet you are ``logged 
on'' to the service. This gives the service the ability to notify 
others you are online. You are given the ability to see when selected 
people are online. You can then exchange real-time, or ``instant'' 
messages.
    Instant Messaging Software and Users: ICQ--73 Million Users; AOL--
65.5 Million Users; MSN--2.8 Million Users; Tribal Voice Pow Wow--10 
Million Users; Yahoo Messenger--Undisclosed; Prodigy Instant 
Messaging--Undisclosed (PC Week 10/11/99)

    Mr. Upton. Thank you, Ruben.
    Ms. Curtin has also come out from Washington today.
    Thank you.

                  STATEMENT OF CAROLINE CURTIN

    Ms. Curtin. Thank you, Chairman Upton and Congressman Bass, 
for having me here today to testify on issues relating to child 
safety in the on-line environment.
    I just wanted to take a minute to thank Katie, in 
particular, for sharing your experience and your courage and 
your hope. It gives me a renewed vigor and effort in going back 
to AOL. I will certainly share your story with my colleagues, 
the people that work on these issues day in and day out.
    We know how important they are, but hearing your story 
renews that and reemphasizes it. So thank you.
    As Director of Children's Policy for AOL, I am responsible 
for coordinating child safety and privacy protections across 
the AOL properties, as well as educating parents about on-line 
safety and the importance of parental involvement.
    I am pleased to have the opportunity to describe AOL's 
efforts to educate our members about on-line safety, the tools 
and resources that we provide for our members, such as our 
easy-to-use parental controls, as well as our ongoing 
partnership with law enforcement and other stakeholders to help 
keep the on-line environment safe for children.
    AOL has played a significant role in the development of the 
on-line media, and we have always shared a special appreciation 
of its enormous potential to benefit society, especially 
children.
    Learning how to explore and understand the on-line world is 
an essential skill for our children in today's wired world, but 
we all agree that kids need and deserve special protection in 
this new medium. AOL recognizes that parents must have the 
ability to ensure to that their children can enjoy a rewarding 
and safe interactive experience on line. It has, therefore, 
been our challenge to craft rules of the road for children's 
on-line safety, enabling parents to protect their children 
while at the same time helping them to take advantage of the 
wonders of the on-line environment.
    By promoting major public education campaigns and closely 
cooperating with elected officials and government agencies on 
outreach and enforcement efforts, we have tried to offer 
strong, proactive leadership in every area of children's safety 
on line.
    Clearly no wall, no technology, no corporate initiative can 
ever take the place of an educated and involved parent. We have 
heard that from earlier testimony and I cannot emphasize it 
enough. This is why we have dedicated significant energy to 
providing AOL parents with the most useful information, content 
tools, and safety tips to help protect their kids, as well as a 
list of resources available for both families on AOL and the 
rest of the Internet.
    By doing so, we have tried to empower parents so they can 
ensure that their children's on-line experiences are the best 
they can be.
    AOL has been a leader in organizing industry efforts to 
educate consumers about on-line safety and is committed to 
continuing this leadership role. Among these efforts, AOL was a 
leading corporate host of the America Links Up national public 
education campaign, designed to give parents information to 
help their children have a safe, educational, and rewarding 
experience on line.
    In addition, AOL created and distributed a special video 
for kids called Safe Surfin' that features on-line safety tips 
that are presented by some of the younger generation's favorite 
celebrities. The video was developed in partnership with the 
National School Boards Association and has been introduced into 
schools across the country.
    AOL was also a key partner in forming a GetNetWise.org Web 
site, a resource designed to provide consumers with 
comprehensive on-line safety information that includes guidance 
from some of the major industry leaders.
    Finally, AOL works closely with the National Center for 
Missing and Exploited Children to support its mission of 
recovering missing children and to combat on-line exploitation 
of children.
    Since July 1997, AOL and NCMEC have maintained an on line 
program called ``Kid Patrol'' which helps locate abducted and 
missing children. AOL also helped to launch NCMEC's Cyber 
Tipline.
    In addition, AOL has developed a training video and a 
nationwide service of hands-on training seminars for law 
enforcement officers to teach their agencies how best to adapt 
traditional investigation and enforcement techniques to the on-
line environment in order to effectively pursue and prevent 
cyber crime. We believe this type of cooperation with law 
enforcement and investigative organizations is critical to 
supporting AOL's on-line safety mission.
    In addition to our leadership in industry efforts to 
educate families about on-line safety, AOL devotes significant 
time, energy, and resources to developing tools for parents to 
protect their kids on line. AOL's parental controls are the 
foundation of our child protection package and a key offering 
of our subscription service.
    While providing kids with entertaining and educational 
experiences has always been an important mission for AOL, we 
strongly feel that it also our responsibility to help parents 
manage their children's on-line experiences. AOL's parental 
controls put the power in the hands of parents, enabling them 
to make informed decisions about their kids' on-line activities 
by selecting the appropriate level of participation for each 
child.
    Parents also have the ability to customize additional 
features, such as chat, E-mail, instant messaging, based on 
their children's on-line savvy, age, and maturity level. AOL's 
parental controls are server-based technology. This delivery 
mechanism means that the controls follow the child's screen 
names or E-mail address. So no matter where a child signs onto 
America Online, their parental controls will stay with them.
    In 1998, we changed our registration process on AOL to 
require parents when creating a screen name to actually select 
one of four parental controls categories. The four choices are 
kids only, young teen, mature teen, or general access. Only 
master screen names can actually create a new screen name. That 
is the first screen name that signs up with the AOL service.
    When creating a separate screen name for their child, 
parents can make the decision of what is right for their 
particular child. A kids only setting, which we recommend for 
children 12 and under, and there you will see actually those 
are the four choices that a parent is given just after creating 
a screen name.
    If you select a kids only setting, this will limit access 
on line to the kids only channel, which has been specially 
created for children 12 and under. This child will receive a 
customized welcome screen when they sign on to AOL and it will 
have content that is specifically created for kids, both by AOL 
and by our kids' partners such as Nickelodeon.
    A child using a kids only screen name can only access age-
appropriate content on AOL and the rest of the Web. They 
interact in kids' chat rooms and message boards that are fully 
monitored by background-checked employees, who have been 
specially trained to work in these chat rooms and on the 
message boards.
    In addition, by default, kids only screen names cannot 
instant message or visit any Web site that has not been 
approved as age appropriate. A parent could decide to turn 
instant messaging on if they so decided.
    A young teen category, which is recommended for ages 13 to 
15, provides more freedom than a kids only screen name, but 
does not provide full access to mature content and interactive 
features. Young teen screen names can access most AOL content 
and can visit Web sites that have been approved as age 
appropriate as well.
    Young teens may communicate with others through E-mail and 
in a range of message board and chat areas, including our Teen 
Channel Chats and message boards, which again are monitored by 
background-checked and trained employees.
    A mature teen setting, which is recommended for teens 16 to 
17, allows older teens more freedom, but still a protected 
experience.
    Each of these category settings has a pre-selected defaults 
for different features such as chat, E-mail, instant messaging, 
and Internet access. A parent, however, can choose to customize 
any of these defaults within a category to ensure the 
experience best matches his or her child.
    So, for example, you could put your child on a kids only 
screen name, but you could choose a mature teen Web experience 
or you could decide that you do not want your child to chat at 
all, even though you selected kids only. You could decide to 
block all AOL chat rooms even if they were monitored.
    We continue to evolve our parental controls to meet 
consumer needs for safe, easy-to-use tools. In response to 
consumer request, we introduced our latest feature, the Online 
Timer, in the spring of 2000. This feature actually allows 
parents to determine how long and when their children can be on 
line and was among our most highly requested features.
    We have found that education of our members is an ongoing 
process. As new consumers come on line every day and as our 
existing customers' lives evolve, their parental controls needs 
may change as well. AOL members spend an average of 76 minutes 
on line per usage per day; so we have ample opportunity to 
remind parents about their choices and about on-line safety.
    We believe that every family should periodically review 
this new information, check their child's parental control 
settings, make sure they know their children's on-line friends, 
and update this information as appropriate as their child grows 
older and more mature.
    We reach our members through several key vehicles on line. 
We have an area called Neighborhood Watch and parental 
controls, of course. These are our two on-line safety 
information areas. These areas are always available and they 
are promoted at a very high level to the members. In fact, the 
welcome screen has a button for parental controls.
    We use keywords on AOL. We try to make them logical, such 
``child safety,'' ``parental controls,'' ``Note to Parents,'' 
and ``help.'' These areas have lots of information and FAQs 
about how to make sure the child's experience is safe on line.
    In our kids areas, our Kids Only Channel, and our Teens 
Channel, we have on-line safety tips designed for kids and 
teens. They are integrated into the experience. In fact, both 
children and teens must pass through these safety reminders 
before they may enter into a chat or a message board area. 
Every time they go in, they see the safety tips.
    We also ask that our monitors in these areas remind kids if 
they see a child or a teen giving out personal information. The 
monitors have the tool to hide that in the chat. They also have 
the ability to gag a child or a teen or someone who is acting 
out in a chat room so that they are silenced or that they are 
actually evicted from the chat room.
    In the kids help area we have on-line safety tips, and we 
remind kids day in and day out not to give out their home 
address, not to give out their telephone number, or any other 
identifying information.
    We also have a special button called ``Tell AOL'' that is 
in the chat rooms. With one click a child or teen can notify us 
if they have a problem. Even though these chats and message 
boards are monitored, if they are in an instant message 
conversation, they can just go to keyword ``Tell AOL.'' These 
reports now go into a special queue so that the member services 
representatives at AOL know that it is coming from a kids area 
or they know it is coming from a teens area and they can 
respond hopefully even quicker than they would in an ordinary 
circumstance.
    To briefly summarize, AOL's commitment to families and 
child safety includes three elements: educating consumers about 
on-line safety; providing great age-appropriate content for 
young audiences; and offering parents easy-to-use, flexible 
tools to customize their child's on-line experience.
    Finally, it bears repeating that at the end of the day, 
there is no substitute for parental involvement. Raising 
consumer awareness about parental controls, choices, and on-
line safety is a collaborative effort. AOL believes that the 
industry and we have made great strides in this arena and are 
on the right path and continue to do so.
    We look forward to working closely with you on this 
important issue.
    Thank you again for this opportunity and I would be happy 
to answer any questions later.
    [The prepared statement of Caroline Curtin follows:]

  Prepared Statement of Caroline Curtin, Director, Children's Policy, 
                          America Online, Inc.

    Chairman Upton and Members of the Subcommittee, thank you for 
inviting me to testify before you today on issues relating to child 
safety in the online environment. As Director of Children's Policy for 
AOL, I am responsible for coordinating child safety and privacy 
protections across the AOL Inc. properties, as well as educating 
parents about online safety and the importance of parental involvement. 
I am pleased to have the opportunity to describe AOL's efforts to 
educate our members about online safety, the tools and resources we 
provide for our members--such as our easy-to-use, powerful Parental 
Controls--as well as our ongoing partnership with law enforcement and 
other stakeholders to help keep the online environment safe for 
children.
    AOL has played a significant role in the development of the online 
medium and we have always shared a special appreciation of its enormous 
potential to benefit society especially children. Learning how to 
explore and understand the online world is an essential skill for our 
children in today's wired world, but we all agree that kids need and 
deserve special protection in this new medium. AOL recognizes that 
parents must have the ability to ensure that their children can enjoy a 
rewarding and safe interactive experience online. It has therefore been 
our challenge to craft rules of the road for children's online safety, 
enabling parents to protect their children while at the same time 
helping them take advantage of the wonders of the online environment.
    By promoting major public education campaigns and closely 
cooperating with elected officials and government agencies on outreach 
and enforcement efforts, we have tried to offer strong proactive 
leadership in every area of children's safety online. In some ways even 
more important than those efforts, however, has been our commitment to 
providing our member families with the resources and tools they need to 
make informed decisions. No law, no technology, no corporate initiative 
can ever take the place of an educated and involved parent when it 
comes to their children's online safety. That's why we've dedicated 
significant energy to providing AOL parents with the most useful 
information, content, tools and safety tips to help protect their 
children, as well as a list of the resources available for families 
both on AOL and the Internet. By doing so, we've tried to empower 
parents so they can ensure that their children's online experience is 
the best it can be.

                 INDUSTRY EFFORTS TO EDUCATE THE PUBLIC

    We have always believed that the industry must lead the charge in 
giving parents the tools they need to protect their children online. 
AOL has been a leader in organizing industry efforts to educate 
consumers about online safety and is committed to continuing this 
leadership role.
    Among those efforts, AOL was a leading corporate host of the 
America Links Up national public education campaign, designed to give 
parents information to help their children have a safe, educational and 
rewarding experience online.
    In addition, AOL created and distributed a special video for kids--
called Safe Surfin'--that features online safety tips presented by some 
of the younger generation's favorite celebrities. This video was 
developed in partnership with the National School Boards Association 
and has been introduced into schools across the country.
    Furthermore, AOL, in conjunction with the American Library 
Association, launched the Internet Driver's Ed program. This program is 
a traveling Internet education and safety class for children and 
parents, hosted in children's museums and other prominent venues in 
major cities nationwide.
    AOL was also a key partner in forming the GetNetWise.org website--a 
resource designed to provide consumers with comprehensive online safety 
information that includes guidance from some of the major industry 
leaders, such as AOL.com, the AOL subscription service, and Netscape.
    Finally, AOL works closely with the National Center for Missing and 
Exploited Children (NCMEC) to support its mission of recovering missing 
children and to combat online exploitation of children. Since July 
1997, AOL and NCMEC have maintained an online program called ``Kid 
Patrol'' which helps locate abducted and missing children. AOL also 
helped to launch NCMEC's Cyber Tipline and has participated in an 
ongoing partnership to operate this service. In addition, AOL has 
helped develop a training video and a nationwide service of hands-on 
training seminars for law enforcement officers to teach their agencies 
how best to adapt traditional investigation and enforcement techniques 
to the online environment in order to effectively pursue and prevent 
cybercrime. We believe this type of cooperation with law enforcement 
and investigative organizations is critical to supporting AOL's online 
safety mission.

                  TOOLS AND RESOURCES FOR AOL MEMBERS

    In addition to our leadership in industry efforts to educate 
families about online safety, AOL devotes significant resources to 
developing tools and resources for our own members to protect their 
children in the online environment.

a. AOL's Parental Controls
    AOL's Parental Controls are the foundation of our child protection 
package and a key offering of our subscription service. While providing 
kids with entertaining and educational experiences has always been an 
important mission for AOL, we strongly feel that it is also our 
responsibility to help parents manage their child's online experiences. 
AOL's Parental Controls put the power in the hands of parents, enabling 
them to make informed decisions about their kids' online activities by 
selecting the appropriate level of participation for each child. 
Parents also have the ability to customize additional features such as 
chat, e-mail and Internet access based on their children's online savvy 
and maturity.
    AOL's Parental Controls are a serverbased technology. This delivery 
mechanism allows us to provide the most secure experience to our 
members because the Parental Controls settings are actually attached to 
the child's individual screen name. No matter where that child signs 
online from home, school or a friend's house, the Parental Controls 
follow with the child's screen name.
    In 1998, we changed our registration process to require parents to 
set Parental Controls for each screen name upon screen name creation. 
When we integrated Parental Controls into the Create A Screen Name 
process; we saw a dramatic increase in adoption as a result. There are 
up to 7 screen names available on one AOL account, enabling even larger 
families to give each child in the household his or her own screen name 
with customized Parental Control settings. Only ``Master'' screen names 
controlled by the parents can create a new screen name or set or change 
Parental Control settings.
    When creating a separate screen name for their child, parents are 
given the opportunity to choose one of three different standard age 
``category'' settings: Kids Only, Young Teens, or Mature Teens.
    A Kids Only setting (recommended for 12 and under) restricts 
children to the Kids Only Channel, which has been specially created and 
programmed for children 12 and under. The child also receives a 
customized Welcome Screen. A child using a Kids Only screen name can 
access ageappropriate content on AOL and the Web and interact with 
others online through email and in special supervised kids' message 
boards and chat areas, but is blocked from taking part in general 
audience chat rooms and message boards on AOL, sending or receiving 
Instant Messages and visiting any Web site that has not been approved 
as ageappropriate.
    A Young Teen (recommended for ages 13 15) category provides more 
freedom than a Kids Only screen name, but does not provide full access 
to more mature content and interactive features. The Teens also receive 
a customized Welcome Screen. Young Teen screen names can access most 
AOL content, and can visit Web sites that have been approved as age 
appropriate. They may communicate with others online through email and 
in a range of message board and chat areas, Including Teen chats and 
message boards that are monitored by background employees. Teens are 
restricted, however, from accessing newsgroups, visiting inappropriate 
Web sites, or taking part in private chat rooms.
    A Mature Teen (recommended for ages 1617) setting allows older 
teens the most freedom of any of the Parental Controls categories. 
Mature Teen screen names can access all content on AOL and the Web 
except sites that have been classified for an adult (18 plus) audience. 
They can locate others and communicate online through Instant 
Messaging, all chat areas, email, private messaging and AOL's Member 
Directory.
    Each of these category settings has a preselected set of 
``defaults'' for different features such as chat, email, Instant 
Messages and Internet access. A parent can choose to customize any of 
these defaults within a category to ensure the experience best matches 
his or her child so even on a Kids Only screen name (our most 
conservative), a parent may choose to further limit access to email to 
an ``approved'' list, or, alternately, may decide that the child is 
mature enough to participate in Instant Message conversations. A parent 
may choose to modify their child's access to content (Web, newsgroups, 
file downloads) or way to communicate with others online (e-mail, 
Instant messages, chat). For example, if you don't want your child to 
chat, you can customize Parental Controls and block all AOL Chat or you 
can choose only monitored AOL Chat.
    We continue to evolve our Parental Controls to meet consumer needs 
for safe, easy-to-use tools. In response to consumer request, we 
introduced our latest feature, the Online Timer, in the spring of 2000. 
This feature allows parents to determine how long and when their 
children can be online, and was among our most highly requested 
features.

b. Educational Tools and Member Outreach
    We have found that education of our members is an ongoing process. 
As new consumers come online every day and as our existing customers' 
lives evolve, their parental controls needs may change as well. AOL 
members spend an average of 76 minutes online per usage day (Source: 
Media Metrix March 2002) so we have ample opportunity to remind parents 
about their choices, and about online safety. This is important not 
only for new members to our service, but for existing parents as well. 
We believe that every family should periodically review new 
information, check their child's Parental Controls settings and update 
them as appropriate for that child's age and maturity. Also important, 
we have worked to quickly and effectively notify our members of 
significant news and developments in the area of children's safety, 
like the Children's Online Privacy Protection Act or new Parental 
Controls offerings that may impact their family's online safety 
decisions.
    We reach our members through several key vehicles online. 
Neighborhood Watch and Parental Controls are our central ``online 
safety'' information areas. These areas are always available online to 
our members through easy-to-find mechanisms including:

1. Keywords: We use logical ``keywords'' such as ``child safety,'' 
        ``Parental Controls,'' ``safety,'' ``Note to Parents,'' and 
        ``help'' to lead our members to online education areas about 
        child safety and privacy. Online safety for kids is a topic in 
        our AOL Help AZ area. And we educate our newer members about 
        keyword use early on, through Welcome Screen promotion of our 
        Member Benefits Area.

2. Prominent Placement: Parental Controls is an icon on the Welcome 
        Screen of our service which every member passes through each 
        and every time they sign online. Additionally, Parental 
        Controls are integrated into our Create A Screen Name process.

3. Kids Only & Teens Channels Reminders: Both our Kids Only Channel, 
        directed to children 12 and under, and our Teens Channel, 
        created for younger teens 13 to 15, have online safety tips 
        integrated into the experience. In fact, kids and teens must 
        pass through these safety reminders before entering interactive 
        chat and message board areas. In the ``Kids Help'' area, AOL's 
        ``Online Safety Tips'' remind children not to give out their 
        home address or other identifying information to anyone online 
        and to notify AOL and their parents if they encounter anybody 
        that make that makes them feel uncomfortable or unsafe. There 
        is a special ``Tell AOL'' feature that children can use to 
        alert AOL of any such concerns.
    An essential part of AOL's commitment to families, of course, is to 
provide great content for children. The AOL Service reaches over 3 
million children ages 211 (Source: Media Metrics, March 2002). For 
almost 10 years now, AOL's Kids Only Channel has been delivering fun, 
engaging and educational programming to children 12 and under. In 
addition, all Kids Only chat rooms and message boards are monitored by 
background checked and specially trained AOL employees. And Yahoo! 
Internet Life Magazine's 2001 awarded the Kids Only Channel the ``Best 
Kids Community'' for ``kid-friendly games, chat and homework helpers.''

                               CONCLUSION

    To briefly summarize, AOL's commitment to families and child safety 
includes three key elements: Educating consumers about online child 
safety, including our collaborative efforts with other companies in the 
industry; providing great age appropriate content for young audiences; 
and offering parents easy-to-use, flexible tools to customize their 
children's online experience.
    We are constantly enhancing our offerings to families and work 
closely with others in the industry to finetune our technological tools 
so that they are the most up to date and effective. Filtering, rating 
and labeling technologies are essential parts of the toolkit that can 
be used to protect children on the Internet.
    Finally, it bears repeating that there is no substitute for 
parental involvement online. Raising consumer awareness about parental 
controls, choices and child online safety is a collaborative effort. 
AOL believes that the industry and we have made great strides in this 
arena and are on the right path to continue doing so. We look forward 
to working closely with you on this important issue.
    Thank you again for this opportunity; I would be happy to answer 
any questions that you may have.

    Mr. Upton. Thank you very much.
    Kathleen Tucker.

                  STATEMENT OF KATHLEEN TUCKER

    Ms. Tucker. Thank you.
    Good afternoon. My name is Kathleen Tucker.
    Thank you, Chairman Upton, for inviting me to testify today 
on behalf of I-SAFE America, a nonprofit Internet safety 
education foundation, and on behalf of our children who are at 
risk of predation upon on the Internet.
    Predatory acts against children are among the most heinous 
of crimes that are perpetrated within our society today. With 
the technological advancement in Web tools that allow even the 
youngest of our children access to the Internet, a universal 
paradigm shift has occurred in the methods and means that are 
available to child predators as they stalk their prey. And as 
such, we need a universal paradigm shift to occur in the 
preventative tactics that we employ in an effort to keep our 
children safe.
    I have had the opportunity to listen today to all of the 
other people who have testified before me, and I believe that 
the testimony that I offer will be complementary to that. I 
agree that parental supervision is key. I agree that law 
enforcement and the judicial process is key.
    We also must be able to bring education as a tool, as a 
method of empowerment to those kids much in the same way that, 
as you spoke before, you do not just hand them the keys to the 
car and tell them to go drive. We do not hand them the keys to 
the information and access on the Internet.
    Parents provide education and also we send them to school, 
where they are provided with education on driver's ed. or on 
gun safety, and then they are handed the tools with which to 
pursue those interests.
    Chat rooms are among one of those technological 
advancements. Chat rooms, in and of themselves, are not 
inherently good or evil. They are electronically enabled 
methods for communication.
    Unfortunately, one participant may use that method of 
communication to gain information about another participant for 
purposes of exploitation or entrapment.
    There is no one solution for protecting our children. We 
need a well-balanced approach that attacks the child predation 
problem from a multiplicity of angles: education, economics, 
legal, and technical.
    With respect to the value of education within this 
equation, I refer to a recently published study by the National 
Research Council and the committee to study tools on protecting 
kids against pornography and other inappropriate Internet 
content.
    This study noted that an essential element for protecting 
children from inappropriate material on the Internet, and one 
largely ignored in this present debate, is the promotion of 
social and educational strategies that teach children--excuse 
me for just a moment.
    Mr. Upton. Thank you, again, to the Mattawon folks for 
coming. Thank you.
    Ms. Tucker. Thank you, Chairman Upton, for that short 
break.
    Mr. Upton. They have got buses to catch.
    Ms. Tucker. I understand.
    Mr. Upton. It is great that they could be here.
    Ms. Tucker. I thought I would give us all just a moment to 
let them file out and then I can continue.
    Thank you again.
    With respect to the value of education within this 
equation, I refer to this study. An essential element of 
protecting children from inappropriate material on the Internet 
and one largely ignored in the present debate are social and 
educational strategies that teach children to make wise choices 
and to take control of their on-line experience: who they meet, 
to whom they talk, where they go, what they do, and what they 
do.
    Children need to acquire skills that will allow them to 
evaluate independently the information and images that they are 
viewing. By improving children's information and media 
literacy, they are better able to critically analyze those 
messages and images that they see and to be able to interpret 
underlying messages.
    Children should be educated in Internet safety much as they 
are taught about their physical safety. This might include 
teaching them how sexual predators and hate group recruiters 
approach these young people on line.
    They need to be able to recognize jargon that signals 
inappropriate material and whether to provide personal 
information.
    To guide parents, public service announcements and media 
campaigns can help educate them about the nature and the extent 
of the dangers of the Internet and the need for safety 
measures. Many of our parents, many of the children's parents 
are not technically informed. They also need to be educated.
    Just as our previous witnesses before have stated that they 
provide education with AOL on line, our parent here who has 
come forward to say that parents should be involved with their 
children, absolutely, and we need to get those educational 
messages out to the parents as well.
    In conclusion, the value of empowering our children with 
the knowledge and critical thinking skills that they need to be 
able to independently assess the everyday situations that they 
will encounter while on line alone, without parents' 
supervision, they must have these through education. The 
children themselves must be able to effectively protect 
themselves against cyber predators. They must be able to 
recognize potentially harmful and inappropriate actions, to 
actively disengage from negative behaviors and compromising 
situations, and to seek help when they are threatened.
    These lessons are learned. Education and empowerment are 
key.
    Chairman Upton and Congressman Bass and other Members of 
Congress, you face a daunting task in initiating protective 
measures for our children, and you are to be applauded in this 
effort.
    In I-SAFE America, we do offer our education programs and 
our outreach campaigns as one tool to be used with the many 
other tools that are available as you craft your solution.
    Thank you for your concern, and thank you for your 
attention.
    [The prepared statement of Kathleen Tucker follows:]

Prepared Statement of Kathleen Tucker, Director, Curriculum Development 
                 & Implementation, I-Safe America, Inc.

    Thank you, Chairman Upton, for inviting me to testify before the 
House Subcommittee on Telecommunications and the Internet at the 
hearing entitled Chatting On-Line: A Dangerous Proposition for 
Children. As you requested, my testimony will focus on the dangers of 
Internet chat rooms to children and ways to educate parents and 
children about how to avoid such dangers.
    Predatory acts against our children are among the most heinous of 
crimes perpetrated within our society. Historically, communities as a 
collective take deliberate and specific actions to protect their 
children in an effort to prevent these heinous acts. These protective 
actions include: education--teaching children to be wary of strangers, 
to recognize and avoid dangerous situations, to cry for help when they 
feel threatened; parental supervision--participation by parents in 
children's activities and the monitoring of the child's friends; 
preventative tactics--adult supervision at events when children are 
away from home; physical barriers--locking the doors at home, barring 
uninvited persons from access to schools and special events, keeping 
objectionable (pornographic) material in physical locations out of the 
reach of children; and, law enforcement intervention--prevention 
programs for students and the determent, apprehension, detention, and 
incarceration of persons known to prey upon our children.
    With the technological advancements in web tools that allow even 
the youngest of children access to the Internet, a universal, paradigm 
shift has occurred in the methods and means available to child 
predators in pursuit of their prey; and, as such, a universal, paradigm 
shift must occur in the preventative tactics that we employ in our 
efforts to protect our children against these predators.
    The content of my testimony today will address the ramifications of 
this universal shift, the dangers faced by our children as they explore 
the wonders of the Internet and as they interact in online Chat Rooms, 
the role of education and the need to empower our children in order to 
minimize the number of predatory acts predicated against them, and the 
criticality of a well-balanced approach that attacks the child-
predation problem from a multiplicity of angles: education (children, 
parents, & the community), law enforcement, legal, and technical.
    Let me begin by addressing specific examples of how dramatically 
the protective actions that have been employed historically have been 
impacted by this technologically-enabled, Internet-driven, paradigm 
shift.
    1) Education. Parents teach children to be wary of strangers on the 
street, in public places, and at the front door; but now, the strangers 
that these children meet--are not on the street--they are in 
cyberspace. And, to the detriment of the parents, many of their 
children are more ``Net'' savvy than either parent. This inequality of 
knowledge hinders parents in their abilities to address cyber safety 
issues and to properly instruct their children about the dangers of 
meeting strangers online.
    Historically, when parents taught their children to recognize and 
avoid dangerous situations, those situations were based on tangible, 
physical elements within their community. Now, danger lies in an 
amorphous cyber-world cloaked in the allusion of anonymity.
    2) Parental Supervision. Many of our children's activities have 
dramatically shifted from participatory activities (easily supervised 
by a parent and often enjoyable to watch) to solitary activities--
engaged through the computer keyboard or joystick--that do not lend 
themselves to easy supervision nor enjoyment by a non-participant (such 
as a parent). Children may spend hours playing solitary games online, 
or they may play in tandem with their cyber friends, or they may even 
play with total strangers they connect with online in an Internet 
gaming community.
    The Internet--and more specifically the advent of the Chat Room--
has broadened a child's ability to meet other people and acquire 
``friends.'' Historically, children made friends at school, through 
family acquaintances, and from participating in community 
organizations. A child is no longer confined to the local community 
from which to socialize and gain friends; literally, cyberspace 
eliminates all geographical barriers and frees a child to roam the 
world in search of that one, special ``friend.'' Predators are also 
free to roam.
    The degree of difficulty for parents to monitor--or to simply 
meet--their child's friends has increased tremendously.
    3) Preventative Tactics. A commonly employed tactic for protecting 
our children is to provide an adult chaperone as our children explore 
outside of their community. Now, children explore the wonders of the 
world by transporting themselves through cyberspace. They can travel to 
the brightest, most intellectual domains of the universe and, 
conversely, they may travel to the darkest, most detestable realms of 
the human imagination; and, they travel this world alone, without the 
care and protection of a chaperone.
    4) Physical Barriers. Historically, parents routinely lock their 
doors at home each night to keep intruders out; schools monitor persons 
who enter the campus; and objectionable (pornographic) material is 
distributed from adult-only sections in local businesses. Presently, 
parents continue to lock their doors, but, their children inadvertently 
invite the pedophile into their bedrooms through a chat room 
conversation or via email. Gone are the days when predators have to 
search for unlocked doors or open windows. Gone to are the days with 
the child predator had to troll the schools or neighborhood playground 
to find a child that is isolated, or lonely, or bored; all the predator 
has to do now is to troll the Internet. There are innumerable, 
vulnerable children who are isolated, and lonely, and bored who 
constantly search the Internet for other children with whom they can 
make friends and chat. As these children search the web for friends so 
too the predator searches the web for prey. The predator will find the 
child, the child will find a ``friend,' and the outcome will be 
devastating.
    The effectiveness of currently employed physical barriers has been 
severely compromised. Predators lure and seduce their victims from 
within the privacy of the victim's own home. Pornography intrudes into 
a person's private email and appears on the screen when a child 
inadvertently selects a pornographic website while conducting research 
for a homework assignment. Predators, pornographers, pedophiles, 
operate in a world that is no longer constrained by physical 
limitations or geographical barriers; they stalk their prey through 
cyberspace and routinely visit their prey as invited, virtual guests 
into the home of their next victim.
    5) Law Enforcement Intervention. As Internet use continues to grow, 
so will the number of cyber criminals. These criminals are sexual 
predators, pornographers, hackers, and thieves. They target and then 
victimize innocent people--especially our youth and our elderly--via 
this electronic highway. Crimes vary from theft of credit card 
information or personal identities to solicitation of sexual acts, 
stalking, hacking, and trafficking in child pornography. Many of the 
crimes are new (computer hacking for example) while other crimes, such 
as child predation, have haunted law enforcement officers for 
centuries. Regardless of the nature of the crime, the criminal's method 
of attack--via the Internet--is relatively new; the Internet has 
changed the rules of the game. Given that the methods and means 
employed by predators in their victimization of our children have 
changed, so must the tools and techniques employed by law enforcement 
in the pursuit and apprehension of these predators. Law enforcement 
must be allowed to leverage the same technological advances that the 
criminal element uses. Without these advanced tools--law enforcement is 
handicapped. And, given that the methods and means employed by 
predators have changed, new community prevention programs that are 
taught by law enforcement must be developed to inform and advise our 
citizenry of new protective measures.
    The ramifications of this universal, paradigm shift are staggering. 
If taken as a whole they can be overwhelming, perhaps paralyzing; but--
if ignored--the ramifications will be devastating to our youth. To 
approach any entity of this magnitude and to effect change it is 
advisable to search for a common element, theme, or component against 
which a focused solution may be enjoined.
    One common and persistent theme, that has tentacles into every 
aspect of the aforementioned points, is the chat room.
    Today, I will focus on the dangers that unsuspecting children and 
youth may face while engaged within a chat room and the subsequent 
dangers they may face as a result of their activities in a chat room. 
This focus, this perspective, is for the purpose of this testimony only 
and is not intended to discount any of the benefits that may be gained 
through dialog among participants within a chat room nor is it intended 
to discount the benefits that can be gained through the healthy 
exchange of ideas and information. Chat rooms are not inherently good 
or evil; they are electronically-enabled methods of communication that, 
unfortunately, can be used by one participant to gain information about 
another participant for purposes of exploitation or entrapment.
    As defined in The American Heritage<SUP>'</SUP> Dictionary of the 
English Language, Fourth Edition, Copyright <INF><dbl-dagger></INF> 
2000 by Houghton Mifflin Company, a chat room is: ``A site on a 
computer network where online conversations are held in real time by a 
number of users.''
    How does this seemingly innocuous entity, a chat room, play a 
major, insidious role in the entrapment and exploitation of our youth?
    Let's explore the answer to this question by overlaying the 
influence of the chat room on our new cyber paradigm. A chat room is a 
smorgasbord; it is: a town centre--a meeting place for debate; a coffee 
shop--a place for chat and banter; a celebrity hangout--where people 
can chat with their favorite musician or star; a club--where like-
minded persons discuss common interests; a playground--where kids hang 
out with their friends; and, an unprecedented opportunity--where 
persons from anywhere in the world can gravitate to meet new 
``friends,'' exchange ideas, and communicate.
    Children participate in chat rooms every day so that they exchange 
ideas and information, they can hang out with their ``friends'' and 
they can actively search for new friends. Last week, as I taught an 
Internet Safety class to a group of 6th graders, I posed the question: 
``Do any of you have a cyber friend that you met online that you never 
knew before?'' Several of the students raised their hands. I asked one 
young girl to tell the class about her ``friend.'' She said that she 
was bored and lonely so she went online into several chat rooms 
specifically looking to find a friend. She said that she found one and 
they quickly discovered that they had a lot in common. I asked her what 
they chat about. She replied: ``Everything.'' She said they talk about 
family, sisters, brothers, parents, pets, school, where they live . . . 
Literally, the hairs on the back of my neck were standing on end. I 
asked her how she could trust a stranger with so much information. She 
said that she doesn't feel like this is a stranger, this is her friend, 
and she ``knows'' that her friend is a child--not an adult--because her 
friend ``knows too much about things my age--and there's no way that my 
friend is an adult pretending to be a kid--it's just not possible.''
    This child is a cyber-savvy pedophile's dream-come-true.
    The paradigm and the chat room:

1) Education. Parents teach their children to be wary of strangers; 
        but, children don't view their online ``friends'' in the same 
        way as they view a stranger on the street. They haven't made 
        the tangible association between their physical world and the 
        cyber world. In their own mind they envision what they believe 
        their friend ``looks'' like, and no child is going to envision 
        their cyber friend as old or threatening.
2) Education. Children are taught to recognize and avoid dangerous 
        situations. They recognize places within their physical 
        community as potentially dangerous but have not learned to 
        recognize the potential for danger within the chat room.
3) Parental Supervision & Preventative Tactics. Children rarely 
        ``travel'' with their parents or a chaperone to many of the 
        chat rooms where they hang out. Without education to raise 
        their awareness and to empower them to recognize the danger of 
        being alone in a room full of strangers, these children are at 
        risk for exploitation. In July 2000, The Journal of the 
        American Medical Association, in cooperation with a survey that 
        was conducted by the University of New Hampshire's Crimes 
        Against Children Research Center, published a ``Call to Action 
        Report'' in which it reported that girls, older teens, troubled 
        youth, frequent Internet users, chat room participants and 
        those who communicate with strangers online are at the greatest 
        risk. The study also confirmed that children often don't 
        understand the risks associated with talking to strangers 
        online (David Finkelhor, Director of the University of New 
        Hampshire's Crimes Against Children Research Center).
4) Physical Barriers. Chat rooms eliminate the physical and 
        geographical barriers that used to provide a modicum of 
        protection to our children from the predatory elements of our 
        society. Pedophiles now roam the world, without limitations, in 
        pursuit of their next victim. A case in point is the recent 
        seduction of a 13 year-old girl in Katy, Texas who was lured 
        from her home by a 34 year-old pedophile--who she met in a chat 
        room--to his apartment in Tacoma, Washington. This sexual 
        predator allegedly exchanged pornography with his victim over 
        the Internet, arranged transportation to take her from Katy, TX 
        to Tacoma, WA, and raped her over a five day period of time.
5) Law Enforcement Intervention. Chat rooms pose special challenges for 
        law enforcement as well. These hunting grounds for child 
        predators are now the patrol beats for specialized officers in 
        pursuit of these criminals. Technology has wrought dramatic 
        change for both the offender and the officer.
    Up to this point in my testimony, I have provided insight into the 
incredible, paradigm shift that has occurred in our society and how 
this new paradigm directly affects the safety of our children. To 
exemplify the critical points, I mapped the ramifications of this 
paradigm shift to a common element in cyberspace: the chat room. The 
remainder of my testimony will focus on potential solutions that we as 
a society may embrace in an effort to combat the clear and present 
dangers that our children face as they explore the farthest reaches of 
cyberspace, as they interact, virtually, with persons throughout the 
world, and as they evolve as ``Net'' citizens.
    As Judith F. Krug, Director of the American Library Association's 
Office for Intellectual Freedom, stated in her testimony before the 
COPA Commission on August 3, 2000: ``The children of today will be Net 
citizens for the rest of their lives. They need to be taught the skills 
to cope in the virtual world just as they are taught skills to cope in 
the physical world. Children should be educated in appropriate 
increments and appropriate settings on how to avoid inappropriate 
Internet content, to report illegal or unsafe behavior and to engage in 
safe interaction online. Children who are not taught these skills are 
not only in danger as children in a virtual world, they also will grow 
into young adults, college students and an American workforce who are 
not capable of avoiding online fraud, Internet addictions and online 
stalking.''
    Our children now live in two diverse worlds: their physical world 
and the world of cyberspace. As such, they essentially live in two 
cultures that often conflict. To date, many of the lessons learned in 
the physical world don't seem relevant in cyberspace as these children 
reach out to strangers as friends. This paradigm shift demands new, 
innovative educational programs for our children, their parents, and 
the community. It is essential that children, as they travel their 
world of cyberspace alone, be provided with the knowledge they need: to 
independently recognize and avoid dangerous situations online; to 
actively engage learned, proactive techniques to more safely interact 
with strangers online; to critically appraise situations in which they 
find themselves; and, to react appropriately when they find themselves 
in uncomfortable, compromising, or threatening situations.
    According to a press release on May 2, 2002 published by the 
NATIONAL RESEARCH COUNCIL, Division on Engineering and Physical 
Sciences Computer Science and Telecommunications Board and the 
INSTITUTE OF MEDICINE, Board on Children, Youth, and Families regarding 
the findings of the Committee to Study Tools and Strategies for 
Protecting Kids from Pornography and Their Applicability to Other 
Inappropriate Internet Content (chaired by Richard Thornburgh):
          An essential element of protecting children from 
        inappropriate material on the Internet--and one largely ignored 
        in the present debate--is the promotion of social and 
        educational strategies that teach children to make wise choices 
        about using the Internet and to take control of their online 
        experiences: where they go, what they see, to whom they talk, 
        and what they do.
          Children also need to acquire skills that will allow them to 
        evaluate independently the information and images they are 
        viewing. By improving children's ``information and media 
        literacy,'' they are better able to critically assess material, 
        recognize underlying messages, and locate the information they 
        seek.
          Children should be educated in Internet safety much as they 
        are taught about their physical safety, the report says. This 
        might include teaching them how sexual predators and hate-group 
        recruiters typically approach young people online, how to 
        recognize jargon that signals inappropriate material, and 
        whether to provide personal information. To guide adults, 
        public service announcements and media campaigns could help 
        educate them about the nature and extent of dangers on the 
        Internet and the need for safety measures.
    Education is a critical and essential component in combating the 
threat of child predation via the Internet; but, it is only one element 
of the solution. To stem the online predation of our children, it is 
essential that a multiplicity of elements be collectively engaged as 
part of an overarching solution: education (children, parents, & the 
community), law enforcement, legal, and technical.
    According to the National Academies' National Research Council 
report noted previously (this report is available in its entirety 
online at www.nap.edu/books/0309082749/html): No single approach--
technical, legal, economic, or educational--will be sufficient to 
protect children from online pornography. I believe this statement can 
be extended to include all aspects of predatory acts perpetrated 
against children online. The report goes on to describe the need for 
social and educational strategies, technology-based tools, and legal 
and regulatory approaches that can be mixed and adapted to fit 
different communities' circumstances.
    There are many technology-based tools that are currently employed 
in an effort to protect children from exposure to offensive or 
pornographic material online. These tools include filtering and the 
blocking of websites that may potentially contain offensive materials. 
A heated debate surrounds the use of filtering and the 
constitutionality of these and other similar tools. With respect to my 
testimony and the use of technology to provide increased safety, I will 
recognize that filtering is one of a set of tools available and I will 
focus my testimony on a different technology-based tool that may 
potentially prove to be a powerful enabler to the managers of chat 
rooms for attaining ``best effort'' policies and procedures for 
protecting children who frequent their chat rooms: digital 
certificates.
    Currently, both businesses and governmental agencies have begun to 
embrace digital certificate technology as an electronic means for 
identifying participants in transactions that occur online. They 
leverage this technology as a method for verifying and authenticating a 
person's electronic identity. The simplest way to view a digital 
certificate is as an electronic ID card. However, digital certificate 
technology is far from simple; but, given that the intent of this 
testimony is to identify and express how technology can be used, rather 
than to define the intricacies of the technology, I will refer to 
digital certificate technology in the simplest terms possible for the 
reader to understand. For anyone interested in garnering a more in-
depth view of digital certificates and digital signatures you may want 
to visit the American Bar Association, Section of Science and 
Technology, Information Security Committee website to review the 
document Digital Signature Guidelines Tutorial (www.abanet.org/scitech/
ec/isc/dsg-tutorial.html).
    Digital certificates are issued by a certification authority. A 
certification authority can issue various levels of digital 
certificates that are dependent upon the amount of authentication that 
is required to ensure that the person who is applying for the digital 
certificate is in fact the person that he or she claims to be. In other 
words, to obtain a digital certificate a person must present proof of 
identity and the ``level'' of the certificate obtained depends upon the 
amount of proof required.

Example: Acme Certification Authority
Level 1 certificate--any photo ID required
Level 2 certificate--government issued photo ID required
Level 3 certificate--government issued photo ID required plus passport 
        or birth certificate
Level 4 certificate--all requirements of Level 3 plus a background 
check
Level 5 certificate--DNA

    How could digital certificate technology increase the safety of 
children who frequent a particular chat room?
    A public- or private-sector chat room provider could engage digital 
certificate technology as a means for permitting or denying access to 
any given chat room. Conceivably, a chat room provider could institute 
a policy that only children under the age of 13 are allowed to 
participate in a particular chat room. The intent of this policy is to 
provide a safer online environment by making their ``best effort'' at 
excluding adults and potential pedophiles from the chat room. To 
enforce the ``under the age of 13'' policy, the chat provider would 
require all participants to login using a Level 3 digital certificate. 
Through the use of the digital certificate and the chat provider's 
policy of restricting access, the children participating in this chat 
room have a lessened degree of risk than those children that 
participate in unrestricted chat rooms.
    This technology exists. We currently use it to execute online 
financial transactions. Businesses use this technology to protect their 
monetary assets; perhaps, we should explore how it can be used to 
protect our most precious asset: our children.
    Protecting our children is at the very heart of this hearing. Thank 
you, Chairman Upton, for inviting me to testify before the Subcommittee 
on Telecommunications and the Internet. In my testimony, today, I 
addressed the paradigm shift that has occurred within our society due 
the advancements in web technologies and the advent of chat rooms; 
exposed the dangers our children face online and the difficulties faced 
by parents in protecting our children; touched upon one technological 
approach for increasing the abilities of chat room providers to create 
safer chat room environments; and, most importantly addressed the 
importance of education in protecting our children from falling victim 
to online predators.
    In conclusion, there is no one solution for protecting our 
children. However, the value of empowering our children--through 
education--with the knowledge and critical-thinking skills that they 
need to be able to independently assess the every-day situations they 
will encounter while online cannot be overstressed. Children must be 
able to effectively protect themselves from cyber predators, to 
recognize potentially harmful or inappropriate actions, to actively 
disengage from negative behaviors or compromising situations, and to 
seek help when threatened. These lessons are learned. Education and 
empowerment are key.

    Mr. Upton. Thank you all. I know Charlie and I have a 
number of questions, and as I said before we started, I want to 
make this more of a dialog than a formal give-and-take, 
courtroom type scene.
    You know, as I think about this, obviously I think first as 
a dad. I have got a 10 year old and a 14 year old. I also serve 
on the Education Committee, and like Charlie, I probably visit 
schools virtually every week, all different levels, from 
college like here at KBCC to elementary school.
    And one of the things that I have been doing over the last 
6, 8 months, particularly as my role as chairman of the 
Telecommunications and Internet Subcommittee, has been focusing 
on elementary school students, knowing that I have got one that 
is ten, and just looking at the changes in technology that he 
has gone through versus where my daughter was 4 years ago. And 
it is just an incredible change.
    I know two devices connected to the Internet today, talking 
about the explosive growth. One hundred and fifty million 
devices today are connected to the Internet. By 2006, it will 
be a billion devices worldwide connected to the Internet. So 
they will be in our cars, on our wrists, in our offices, our 
homes, you name it.
    And with that comes that double edged sword, and with the 
growth of technology, the dangers, the nightmares that are out 
there: Katie's story, John's story, Jim's story about what is 
happening here in Kalamazoo.
    But when you tie that to what Ruben indicated, usually 
perhaps as many as 30, 100 children before you get a 
conviction? Three hundred children per molester is about the 
average.
    I mean, I think of this gentleman this week that you are 
going to be pressing charges against, a 34 year old. And just 
think how many families.
    Mr. Gregart. We have 20 additional names of females that 
were seized from his computer that we are following up on now.
    Mr. Upton. That is just a pretty scary feeling.
    Charlie.
    Mr. Bass. We have heard some interesting stories and some 
possible solutions. As a Member of Congress, I would like to 
know exactly what recommendations you have or suggestions for 
action that we might take on the policy level. I have not heard 
anybody discuss that.
    Mr. Upton. I have just one idea first, and then I want to 
hear the response.
    You know, I wear two hats, sit both on the Education 
Committee, as well as on the Energy and Commerce Committee. As 
we look at education legislation, you know, my brother is a 
teacher, and we visit schools. It is so hard often to get 
parents involved to oversee exactly what is happening.
    You cannot legislate parental involvement. I know that, but 
I wonder what incentives we might be able to do working with 
our school boards, our schools at every level to make sure that 
parents, in fact, get a daily dose of the dangers that are out 
there to try and make sure that they're engaged, looking over 
their kids' shoulders.
    Do you have AOL?
    Mr. Bass. Me? No.
    Ms. Curtin. We can provide you with a disk.
    Mr. Upton. Yes. I think you can get them at the A&P.
    Ms. Curtin. That is reassuring.
    Mr. Bass. Again, Mr. Chairman, if I can reiterate though, 
we make policy, and this is a very serious and interesting 
problem, but precisely what suggestions do people have for us, 
policymakers?
    If you were to draft a bill, what would it say?
    Mr. Gregart. If Congress were to recognize that this is a 
public safety issue similar to automobile collisions and the 
mandate for airbags and crash worthy vehicles, the issue is: 
how far does the Federal Government want to put its hand into 
technology and manufacturing?
    But I probably would have found it helpful if there were a 
CD not just offering AOL for the first 1,000 hours when I 
bought my new computer, but a CD that was clearly marked as 
educational material prefatory to allowing children access to 
the Internet or bundle it with the software for the different 
programs that come with a new computer.
    What do I have now, AOL 7.0? Is it 7.0? Well, it started 
off with AOL 0, I think.
    And every time AOL has upgraded, I have gotten the next 
version. So I probably miss a lot of the new things, but when 
you open a new computer, if you had just a singular CD, which 
costs how much to burn? Not excessive, but it was clearly 
marked as a condition precedent for you signing onto AOL or any 
other ISP, just like airbags in automobiles.
    Ms. Tarbox. I like to tell this story because it does not 
take too long and because I think it relates well.
    I personally never thought I was going to be a victim of 
AIDS, and I had a speaker come to my school, and she was from 
the town next to me, and she was with her boyfriend, and he was 
cheating on her, and he gave her AIDS. She goes to Harvard, and 
I could see myself, and I could relate.
    And through that story I realized I am just as much a 
victim. I mean I could be just as much at risk as any other 
person.
    I think the problem is that people think if they start 
chatting with somebody on the Internet that their case is 
different. They are not the case like they just heard from 
mine. And people need to realize the dangers.
    And I think the best way to do that is to go out and 
educate. And I know that the government is mandating when the 
government provides funding for computers for schools. They 
should provide funding for education. Children need not to be 
told statistics that are going to go in one ear and out the 
other. They need to be told stories that they can relate to.
    And I think education is so key because the education is 
going to go with that child wherever they go, and while I think 
it is important that we do monitor chat rooms and whatnot, that 
is only going to be limited to that computer. If we give them 
education and the tools to be empowered on the Internet, that 
is going to go with them everywhere.
    So I think there needs to be funding for or laws that 
require if you are going to give them a computer in the school, 
then they need to know how to use it. And those dangers are out 
there, and there are consequences to them.
    Mr. Upton. Before we jump over here, let me just say, too, 
as I talk to my kids and students at school, peer-to-peer 
discussions are the very best in terms of trying to influence 
or trying to get your message across. And that is why, Katie, I 
think your story relates so well, you know, to everybody in 
this community, and that is why I wanted a public hearing here 
to help identify problems and, you know, get those stories 
across so that everyone here can hear exactly that.
    And perhaps from this there will be a lot of families that 
will sit down here tonight when they watch the news or read the 
paper or listen to the radio, conversations from the students 
who were here a little bit earlier, and they will just say, 
``Boy, did you hear what I learned today?''
    And that will open up a whole new chapter in that family's 
house and neighborhood and help try to spread that message.
    Ms. Tucker. In the education formats that we found most 
effective are when we do present real life stories much like 
Katie's, and what is important is that the children are not 
just frightened. You know, you do not just give them horror 
stories, but you give them examples, and you allow them to be 
able to work with those examples in peer groups in the room and 
come back with ways that they can empower themselves to protect 
themselves or to recognize what those dangers were.
    I listened to a young girl the other day, which scared me 
to death. I was teaching in a sixth grade class, and I asked 
all of the kids if they were involved in chat rooms, and most 
of all of the hands go up.
    And I said, ``Have you ever met a cyber friend that you 
never knew before?''
    And this little sixth grade girl raises her hand, and I 
call on her, and I said, ``Well, what do you talk about?''
    And she says, ``Well, everything.''
    And I said, ``Well, why did you meet this friend in the 
first place?''
    She said, ``Because I was lonely.''
    And I said, ``Now, when you talk about everything, what 
does that mean?''
    She says, ``Oh, my family, my school, my sisters, my 
brothers, our pets, where we live, what we do, what we like.''
    And I said, ``And you trust this person?''
    And she says, ``Oh, yes, I trust this person. I know it is 
not an adult because this person knows too much about what a 
sixth grader likes. No adult could ever know that.''
    So what we do in these classrooms, of course, is provide 
examples, you know, like Katie's of how they do know or this 
gentleman who testified today about his daughter, you know, 
trusting this person.
    And we let them realize what a true friend is, what trust 
should be, and then we provide these examples so they can 
understand the difference and make critical decisions because 
they are going to make those decisions in lieu of parental 
supervision also. And I do not discount parental supervision 
whatsoever. I agree that there are many tactics that we need, 
and that is one of them.
    Mr. Upton. Caroline, before you answer, I would like you 
just to comment on the steps. You talked about you are able to 
monitor somebody's chat. Describe exactly how that works and 
some of the things that you have found in addition to 
responding to the same topic.
    Ms. Curtin. Oh, certainly. Well, basically in our kids only 
area on AOL, it is literally impossible to open a kids' chat 
room or go into a kids' chat room unless a host or a monitor 
has officially opened the chat room. The chat rooms are not 
open 24-seven. They are on a schedule. There is always a 
monitor who is identified as the monitor in the chat room, and 
he or she is not only there to help insure that it is a safe 
interaction, but also that the conversation remains relatively 
age appropriate.
    One thing that we did a year ago or so because the chat 
room dialogs were getting a little bit rambunctious, to keep it 
PG so to speak, was we instituted a stop sign before the 
interactive areas. I mean it is literally a red stop sign, and 
we say to kids and teens, you know, ``Keep it clean. Do not 
give out your person information. We want everybody to have a 
great experience, and just FYI, if you do not, we will be 
sending a letter or an E-mail to your parent.''
    That worked really well, and what happens is if three E-
mails go to the parent, we literally scramble the parent's 
password on AOL so that they cannot sign onto AOL without first 
calling in and speaking to a member services representative of 
AOL about what has transpired, about our guidelines in our kids 
and teens areas and the importance of on-line safety.
    So that as proven to be very effective, but I think what we 
are hearing over and over again is kind of a three-pronged 
approach, a simple equation, so to speak, for on-line safety: 
one being empowerment both for parents having the resources and 
the tools and the education, and for kids to know what to do, 
what to look out for.
    Two, education, baking it into the curriculum of the school 
that has Internet access; really reaching out to the kids, 
telling them real life stories.
    I would agree. I was at a middle school a few weeks ago, 
and I made the mistake of having a quiz, and I handed out AOL 
tee shirts, you know, if the kids answered the quiz correctly, 
and they went crazy, and I could barely get them back. I could 
barely get their attention back, but what stopped them was a 
real life story of a man that worked for a computer associate 
firm, and it was an on-line stalking case, and the room went 
silent. And that is what caught their attention, and then their 
hands went up, and they really wanted to know what to do to 
stay safe.
    And then the third is enforcement. And we fully support 
greater resources, greater education, stiffer penalties for 
pedophiles. So I think it really is those three Es in a 
nutshell.
    Mr. Upton. Kathleen.
    Ms. Tucker. I had a question along the lines of your chat 
rooms. Can you guarantee that a participant in a chat room is a 
child?
    Ms. Curtin. No, we cannot. There is no way for us to know 
that definitively without asking for someone to come and meet 
us in a brick and mortar setting really. But that is why we 
have the monitors there. That is why they are trained.
    They are trained to look for people that might be acting as 
if they are children, asking inappropriate questions. We do say 
that the kids and teens chat rooms are attended for kids and 
teens.
    In addition, if a parent wants to use our tools, they can 
really fine tune the chat experience. They can also block 
instant messaging entirely. They can block E-mail.
    If they do not want to do that, they can create an allow 
list of kids' friends, family members that they do feel 
comfortable with their children talking to and limit it that 
way.
    Mr. Upton. If you do an allow list and Johnny down the 
street is on there, but Johnny has got another friend, is he 
able to pull in somebody else or not?
    Ms. Curtin. He is not.
    Mr. Upton. It will just be a strict one.
    Ms. Curtin. It is a strict allowance, yes.
    And we also have instant messaging controls for kids or any 
user on AOL so that if someone is bothering them, they do not 
want to talk to someone anymore, they can put that person on 
their black list. They can also make themselves invisible so 
that the other person cannot have them on their buddy list and 
see that they are on line.
    Ms. Tucker. And the reason that I ask those questions, have 
you considered digital certificates?
    Ms. Curtin. We have looked at digital certificates. I think 
there have been great advancements in technology across the 
board, but we have not seen digital certificates take off to 
the point where we have reached critical mass so that they will 
really be effective, but we are hoping that they get there.
    Ms. Tucker. We are going to pose this just as a thought for 
you as you move forward. One other technical possibility for a 
solution is the use of digital certificates, and for those who 
are not familiar with digital certificates, I am going to say 
it very simply. They are electronic ID cards, and you get these 
by going to a certification authority who has different levels, 
but allows you to perhaps show a photo ID or even a birth 
certificate.
    If we think out of the box a little bit and we were to 
think about in the future issuing digital certificates for 
children who were at school because those certificates would be 
guaranteed and the fact that a child attending a school has 
presented a birth certificate, you know, is identifiable, and 
perhaps we were to use those digital certificates within chat 
rooms, perhaps your dot-kids domain, it may be able to help to 
protect the area from predators.
    Mr. Upton. John had a comment.
    Mr. Karraker. We are talking a lot about AOL. We need to 
recognize there are hundreds of Internet service providers, and 
we are not addressing the industry as a whole. It sounds like 
AOL has changed a lot of what they do since I last dealt with 
them, but I really think there should be some industry 
standards of what should be done by the industry on the 
Internet as far as monitoring chat rooms and what have you.
    But we also need to look at I do not hear a lot of 
conversation about instant messaging that says AOL's, IM, 
Microsoft, Yahoo. All of the rules are downloadable, free, 
instant messages services that nobody monitors.
    A child can come home to an empty computer, go on line with 
whatever service you may be using, download AOL as an example, 
have all of the IM they want to do while I am not home. Before 
I get home they can delete that whole thing, and I never even 
know they have been on the computer.
    I am not the technical expert to talk about it, but really 
it needs to be addressed within the industry with oversight to 
develop some type of controls on this type of stuff.
    We can talk all about chat room controls, but we are only 
addressing a small part of the problem.
    Mr. Upton. But, you know, as Charlie asked the question of 
what can we do as legislators to help, we work with the 
Department of Commerce and other different agencies. I wonder 
if there might be some code that could be established, Good 
Housekeeping Seal type of thing, that Internet service 
providers if they follow that course would be able to achieve 
that particular distinction as a help, whether looking first at 
the industry, trying to establish a code that has got some 
teeth in it.
    We both worked very hard to establish dot-kids with ICANN, 
you know, like we have dot-org and dot-com; have a dot-kids. 
The national folks, you know, a day late, a dollar short, too 
late. And that is why we went to a different little version of 
that so that it is actually dot-kids-dot-U.S., under the 
auspices of the Department of Commerce set up through the 
private sector.
    And my sense is that that will take off, particularly as 
parents learn about those sites and tell their 10 or 11 or 12 
year old that they are welcome to get on the Internet, but it 
had darn well better be a dot-kids site and a lot of different 
groups then funnel in as part of that exercise.
    Ruben, did you want to comment on that?
    Mr. Rodriguez. And I agree with John that we have been 
talking about the industry in general, but one of the things we 
have not talked about is the IRC, very unregulated, global 
medium. You access it through your ISP on the Internet. 
Thousands and thousands of chat room and channels are open for 
communications.
    Many of these cases that do occur do not occur in the 
environment of AOL. Some of the cases we have talked about here 
did, but the majority of cases are happening on IRC where you 
do not have monitoring. You have no controls.
    Somebody creates a channel. Communications are done. If you 
got into IRC right now and you type in ``sex,'' you will 
probably get about 1,100 conversations going on right now in 
different chat rooms going in communications. That is where the 
pedophiles are. That is where the kids are going to look 
because the controls are not there.
    You are also talking about what can Congress do. Well, 
Congress has been doing a lot. I mean, give yourselves some 
credit here. You funded initiatives like the school resource 
officers training program that is similar to the DARE program, 
where you are empowering and educating law enforcement officers 
to go into the schools and talk about this.
    And as they did with drugs with the DARE program, now they 
are talking about Internet safety issues.
    I do agree with you that when you talk to the focus groups 
about kids, who will kids listen to? They will listen to their 
peers. We are currently doing a program called Net Smart, a 
proactive interaction between our Web site, chat rooms, and 
whatever, with kids.
    Kids will listen to kids. We ask them, you know, if we were 
going to sell this idea to you, who would you listen to. Would 
you listen to the Michael Jordans of the world or anybody else?
    They said, no, because they are getting paid, and we know 
they are making high dollars, but we will listen to kids, not 
demeaning Katie, but kids that have done this, that it has 
happened to them.
    Katie is probably one of the older people now in this 
group, but I mean people that have experienced it. War stories. 
And I do agree. The public can relate it to war stories, as 
policemen used to call it. Tell us a story and that way it will 
relate it to us. Do not give us the technical jargon or 
whatever, but tell us, you know, how will it affect us. What 
will it do to us or whatever?
    So Congress has been putting laws into effect to help this, 
and they have been empowering law enforcement officers' 
educational programs.
    I made the mistake about a year ago going to a PTR seminar 
where in the State of Virginia I did a presentation. And after 
the presentation, I had 33 invitations within about 2 weeks to 
go present in these schools, and there is no way one individual 
can do that.
    Educating those that are at the local level, as I said it 
before, and I might sound like a broken record; educating those 
resources that you have at the local level, your law 
enforcement resources, your continued relations law enforcement 
resources to outreach to the public, to go into the schools.
    At one time we thought about educating teachers, but in 
defense of teachers, they have so many responsibilities they 
have to deal with now. You have to bring people from the 
outside to be able to talk about these things, and I think the 
people that are there doing the outreach, the education are the 
law enforcement officers going into the schools at the local 
level. That I think are where the resources need to be Ms. 
Curtin. Just to respond to the comment about instant messaging 
programs and there being certain other ISPs besides AOL, we 
agree. We do not want to be alone in this. You know, it needs 
to be an industry-wide effort clearly, and there has to be 
strong collaboration.
    I mean no one person, no one company can do it on its own, 
and with respect to AIM, that is our free instant messaging 
service. We do not recommend that for children. We, in fact, 
have an age screening mechanism on AIM so that birth date and 
year is required. It is not allowed for children 12 and under.
    That is not foolproof if a child decides to fudge his or 
her age.
    Mr. Upton. Foolproof in my house.
    Ms. Curtin. Good. There are ways to get around it, of 
course, as there are anything. I do not think that we are ever 
going to, you know, be able to block or shut down all of the 
instant messaging programs. I think it gets back to education, 
again, and how kids and teens can be equipped when they are 
using these mechanisms because the fact is that is how kids and 
teens communicate these days, and that is just the reality of 
it.
    So we do have tools on AIM even for blocking people, for 
actually notifying us if there is a problem. You can warn 
someone on AIM, and if you are communicating with them, you can 
actually see how many warnings does this person have, which is 
an early indication that maybe it is not such a good person to 
be talking to.
    We also have something that we call a knock-knock feature 
on AIM. So if you are on AOL and someone instant messages you 
from AIM, a box comes up and says, ``Would you like to accept 
this instant message?'' It is not just all of a sudden you are 
talking to Horselover at AOL.
    So there are protections in place, but it is also a free 
service. So we do not have as much leverage as we do on the 
subscription service, where we know who the subscriber is and 
we have their address and we have their credit card number. If 
we get a report, we can really do something about it.
    Mr. Upton. Katie.
    Ms. Tarbox. Just to get back to the documents because I 
think that is probably a large reason why we are here today, I 
agree with all that we have been talking about. I do not feel 
that there is one solution.
    But when I first heard about the dot-kids bill, I was kind 
of hesitant because I thought, you know, this is not the 
answer. They need to do something more.
    But then as I started to think about it, and I am lucky 
enough to be able to take courses at the Edinburgh Public 
Policy Center at the University of Pennsylvania in 
Philadelphia, and anyone who knows media communication, these 
are probably some of the leading professors and researchers.
    And speaking with my professor, who is a specialist 
actually in the Internet safety for kids and other Internet 
related issues, and I think that it is important that this 
legislation outlines that the content on these Web sites, 
specifically dot-kids, is going to be appropriate because this 
will be most children's introduction to the Internet.
    Most parents will probably put on their Internet filtering 
software and allow it to be just in the dot-kids area, and so, 
therefore, I think it is important that the legislation clearly 
lays out, you know, what kind of Web sites are going to be 
allowed and so that kids learn that the Internet is for 
information, for doing homework, for communicating with people 
that they already know, and looking at it like that, and not 
having the introduction like I had where it is like a bar. You 
go to meet people.
    Mr. Upton. That is exactly what the intent is on the dot-
kids, to do exactly what you just described, and it is going to 
be the introduction, and they will learn a whole number of 
skills, and as they mature, they can still stay on it. They 
will obviously be able to select other sites as well.
    I want to come back, Caroline, just to ask: how hard is it 
for folks to somehow disengage?
    My 10 year old is very responsible, a proud dad. He is not 
going to do that.
    Or he will lose a lot of privileges. But how hard is it for 
someone to go around and, in essence, hack into the sites that 
you have otherwise thought you have blocked off from your son 
or daughter?
    Ms. Curtin. On AOL it is very difficult, and that is 
because it is a server based technology. So that as I 
referenced earlier literally the screen name for your child is 
attached to the parental controls. So as we do see more and 
more devices, palms, and blackberries and AOL TV and all of 
these different ways that you can access the medium from home 
or away from home, no matter where you are, if you as a parent 
have applied parental controls to that screen name, they will 
always be in effect.
    But no system is perfect. Let me say that. No system is 100 
percent infallible 100 percent of the time, but these are 
pretty close.
    Mr. Upton. Jim?
    Mr. Gregart. By lack of fallibility, do you mean that if I 
were to buy a new account as an adult with a credit card and 
then sign up my fictitious children with parental controls 
attached to them, then that you would not know that if I went 
in under one of the names of my disguised, alias, fictitious 
children that, in fact, I was not a 60 year old?
    Ms. Curtin. We would not know that. When a parent or anyone 
creates a screen name, we do not ask how old is the person you 
are creating this screen name for Mr. Gregart. So you would 
know what age level I had set it at. So there would be sort of 
a predisposition that, you know, Goofy Jimmy or whatever my key 
name is----
    Ms. Curtin. Actually we would know on the back end, but 
let's say that you went into one of our kids only chat rooms or 
the teens chat rooms and you had a parentally controlled screen 
name. We would not know that just on the surface of things, and 
no one else would either.
    And one of the things that we have tried to do is really 
make sure that in our kids environment, our kids channel and 
our teens channel, it does not matter if you are on a 
parentally controlled screen name or not. We have the same 
policies for safety and content in place because not every 
parent is going to choose to apply parental controls.
    Mr. Upton. But if somehow you went to the digital ID and 
then it got some universal acceptance, then, in fact, Crazy 
Jimmy would not be able to get his password, right?
    Ms. Curtin. That is correct.
    Mr. Bass. You can prosecute under Michigan law, and this is 
technically within the jurisdiction of this subcommittee, but 
are there any Federal initiatives that you think ought to be 
undertaken in the area of criminal justice?
    Mr. Upton. And as you answer that question, you 34 year old 
that you are going to proceed with charges from last week, I 
think you indicated that assuming that he is convicted, he is 
eligible for up to 35 years.
    Katie's story, interstate, I mean, all of these different 
things, 18 months. I mean, did the laws change? Did they just 
have bad prosecutors? What is the deal?
    Mr. Gregart. Well, Michigan's law is rather new. It 
provides 20 years for using the Internet to commit a felony, 
and that can be consecutive to the underlying felony, which in 
our case would be 15 years. So you get in Michigan what is 
called stat time or consecutive. In other words, you do the 15, 
and then it is up to the judge's discretion to put 20 on top of 
that.
    That is pretty severe, and I support it.
    Ms. Tarbox. In my case he was sentenced in 1998. So there 
were no precedents about other sentencings. It was a Federal 
law, and part of the problem is, as I have spoken to other 
district attorneys or U.S. attorneys, in Frank's case, he was a 
very wealthy, put together man, and if you meet him, if he came 
in here, he is very charismatic, and a lot of judges look at 
these people and think he cannot be that bad, and they have 
given rather light sentencing, especially because there is a 
stereotype to what they think pedophiles should be.
    I am not a law expert, but you know, from what I have 
spoken to and other sentencings that I have seen, I mean, 
somebody got a longer sentencing for not returning library 
books in Florida than, you know, Frank did for what he has 
done.
    So it is a little crazy, and I think the answer is not, you 
know--Frank could have been sentenced up to 20 years. The judge 
did not choose to do so. It is not the legislation's fault. It 
is the judge's fault.
    So we need to communicate that this is really a serious 
crime, and I Do not think that we have made that step. We need 
to let people know how detrimental it is.
    I know victims of sexual assaults who have had this happen, 
you know, 5 years ago and are still dealing with it. I feel 
like I am in a very lucky position. I had parents who could 
afford the best counseling for me, you know, taking me to the 
best specialists.
    This is not the case for every victim, and so I think a lot 
of things need to be stepped up, but unfortunately I do not 
think it is related to this.
    Mr. Upton. Go ahead, Kathy.
    Ms. Tucker. Along the same lines of laws, and so I will 
direct this to those of you who are currently in law 
enforcement, when children are first approached on line and you 
see that contact beginning, such as in the case, and I do 
apologize. I cannot pronounce your last name.
    Mr. Gregart. Me?
    Ms. Tucker. No.
    Mr. Karraker. Karraker.
    Ms. Tucker. Thank you.
    Mr. Karraker. John.
    Mr. Upton. John.
    Ms. Tucker. Oh, John? I an deal with that.
    In John's case, where he notified, you know, law 
enforcement that this was going on and there was not anything 
to be done because there was not a crime, should we not as a 
Nation look at the total picture and try to put into place some 
policies that could prevent these acts before they occur rather 
than always having to deal with after the fact?
    Mr. Upton. And how do these tips ever get passed along to 
the police authorities when they are able to identify, John?
    Mr. Karraker. Part of what I was trying to stress with 
mine, there was no crime that had occurred, but there was the 
possibility that if law enforcement would have been trained and 
would have been equipped to deal with it, they could have been 
notified of the incident. They could have run that case to the 
point where if he would have committed a crime, that he could 
have been arrested for it.
    And that is the type of education that needs to occur with 
law enforcement, and also the funding has to be made available 
to law enforcement.
    Mr. Upton. Ruben?
    Mr. Rodriguez. Mr. Chairman, I mentioned that earlier. In 
John's case, for the law enforcement officer to say there is 
nothing we can do about it because a crime did not occur, we 
have heard that all too often. These cases start out somewhere.
    Law enforcement officers, if they did not have the 
resources locally for John or whatever, law enforcement will 
work these cases. That is how it starts, you know.
    Answering your question where did these tips go, when they 
come to us, we do a lot of validation on the Internet. We have 
14 analysts that look at this stuff, peruse the stuff, build 
probable cause, if you would, to send that information on to 
law enforcement agencies.
    In John's case, I mean, we get these kind of complaints all 
the time. My child received this. I intercepted that, or 
whatever.
    We give it to law enforcement. They proactively go out 
there to work undercover operations, assume the child's 
identity and say, ``Okay. I am now 13 year old little Johnny,'' 
and you know, start talking. This individual starts sending him 
child pornography, gets into the grooming process, and you 
know, he comes to visit her, and he meets this 250 pound burly 
police officer waiting for him when he gets off of the bus.
    So it is being worked. John is perfectly correct. There is 
a handful of law enforcement officers throughout the United 
States that work these kind of cases. As I mentioned, the 
Internet task forces right now, that is 30 independent law 
enforcement agencies or task forces throughout the country. We 
need more of those individuals.
    We do training for law enforcement out there. The National 
Center funds these programs to do protecting children on line. 
AOL is involved in it from the ISP, educating law enforcement 
officers, how to conduct these investigations.
    We have a unit commander course. We bring in the 
lieutenants and sergeants who work these cases to tell them, 
you know, these are the issues you are going to have to be 
dealing with, you know, the policies, the procedures, or the 
laws or whatever. And we want to do more and more of those 
nationwide.
    We have standing room only in these courses that we do, but 
we are not touching as many as we need to talk. I mean, I think 
the last count was over 800,000 law enforcement officers in the 
United States. You are talking several hundred individuals who 
can do these kind of cases.
    So there are resources out there. They just have to be 
expanded.
    Mr. Upton. Well, I want to thank all of you. I want to 
particularly thank staff. It is never easy, I know, for those 
of you who came long ways from both ends of the country. Your 
testimony has been particularly helpful.
    This is an issue for not only every state, but certainly 
every community, every neighborhood, every family, and as we 
see the great positives of the Internet continue to grow, we 
have got to be ever so cognizant of some folks wanting to take 
advantage of a system for their own evil means.
    Jim?
    Mr. Gregart. Congressman, I think we would be remiss if we 
only focused on children in this area. Just for all of the 
adults in the room, I would like to urge you not to respond to 
the former Nigerian Finance Minister who has E-mailed you 
asking you for your personal savings and checking account 
number so that he can transfer $17 million into that account, a 
classic example, and we have adults across this Nation who are 
providing their life savings to people they do not know. So you 
can imagine the problem we have with impressionable children.
    Mr. Upton. That is exactly right.
    Okay. I want to thank all of you. It has been terrific, and 
I just want to say, too, for the press that is here, we will do 
a little press availability down here for any specific 
questions you have for the next 15 or 20 minutes. If everyone 
assembles down here, we will make sure everybody is available 
for whatever questions you might pose.
    Thank you. The hearing is adjourned.
    [Whereupon, at 2:57 p.m., the subcommittee was adjourned.]

</pre></body></html>
